<html>
<title> - LESSONS FROM THE MUELLER REPORT, PART II: BIPARTISAN PERSPECTIVES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]






                   LESSONS FROM THE MUELLER REPORT, 
                    PART II: BIPARTISAN PERSPECTIVES

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 20, 2019

                               __________

                           Serial No. 116-28

                               __________

         Printed for the use of the Committee on the Judiciary






              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






        Available http://judiciary.house.gov or www.govinfo.gov 
        
                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
38-220                     WASHINGTON : 2019 
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr.
HENRY C. ``HANK'' JOHNSON, Jr.,        Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director 
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              

                            OCTOBER 30, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary......................................................     3

                               WITNESSES

Carrie Cordero, Robert M. Gates Senior Fellow and General 
  Counsel, Center for a New American Security
    Oral Testimony...............................................     7
    Prepared Testimony...........................................    10
Richard Hasen, Chancellor's Professor of Law and Political 
  Science, The University of California, Irvine School of Law
    Oral Testimony...............................................    21
    Prepared Testimony...........................................    23
Alina Polyakova, Director, Project on Global Democracy and 
  Emerging Technology, and Fellow--Foreign Policy, Center on the 
  United States and Europe, Brookings Institute
    Oral Testimony...............................................    31
    Prepared Testimony...........................................    34
Saikrishna Prakash, James Monroe Distinguished Professor of Law 
  and Paul G. Mahoney Research Professor of Law, University of 
  Virginia School of Law
    Oral Testimony...............................................    38
    Prepared Testimony...........................................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

A The Hill article titled ``Key Figure That Mueller Report Linked 
  to Russia was a State Department Intel Source'' submitted by 
  the Honorable Matt Gaetz, a Member of Congress from the State 
  of Florida, Committee on the Judiciary.........................    93
A The Hill article titled ``Webb: President Trump is Right'' 
  submitted by the Honorable Andy Biggs, a Member of Congress 
  from the State of Arizona, Committee on the Judiciary..........   101
Tweets submitted by the Honorable Doug Collins, Ranking Member, 
  Committee on the Judiciary.....................................   109

                                APPENDIX

An American Greatness article titled ``No Outrage Over Democrat 
  Ties to Foreign Election Interference'' submitted by the 
  Honorable Andy Biggs, a Member of Congress from the State of 
  Arizona, Committee on the Judiciary............................   138
A statement submitted by the Honorable Sheila Jackson Lee, a 
  Member of Congress from the State of Texas, Committee on the 
  Judiciary......................................................   142
A Newsweek article titled ``Ex-GOP Federal Prosecutors Explain 
  How Trump Obstructed Justice in Viral Video: `Absolute 
  Disregard For the Law' '' submitted by the Honorable Sheila 
  Jackson Lee, a Member of Congress from the State of Texas, 
  Committee on the Judiciary.....................................   146
                                                                   Page
A New York Times article titled ``Mueller Zeros in on Story Put 
  Together About Trump Tower Meeting'' submitted by the Honorable 
  Sheila Jackson Lee, a Member of Congress from the State of 
  Texas, Committee on the Judiciary..............................   149
A New York Times article titled ``Hope Hicks Acknowledges She 
  Sometimes Tells White Lies for Trump'' submitted by the 
  Honorable Sheila Jackson Lee, a Member of Congress from the 
  State of Texas, Committee on the Judiciary.....................   155
H.R. 2353, the ``Duty to Refuse and Report Foreign Interference 
  in American Elections Act of 2019'' submitted by the Honorable 
  Sheila Jackson Lee, a Member of Congress from the State of 
  Texas, Committee on the Judiciary..............................   157 
 
   LESSONS FROM THE MUELLER REPORT, PART II: BIPARTISAN PERSPECTIVES

                              ----------                              


                        THURSDAY, JUNE 20, 2019

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The committee met, pursuant to call, at 10:13 a.m., in Room 
2141 Rayburn House Office Building, Hon. Jerrold Nadler 
[chairman of the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Deutch, Bass, Richmond, Jeffries, 
Cicilline, Lieu, Raskin, Jayapal, Demings, Correa, Scanlon, 
Garcia, Neguse, McBath, Stanton, Dean, Mucarsel-Powell, 
Escobar, Collins, Chabot, Gohmert, Jordan, Buck, Ratcliffe, 
Roby, Gaetz, Johnson of Louisiana, Biggs, McClintock, Lesko, 
Reschenthaler, Cline, Armstrong, and Steube.
    Staff Present: Arya Hariharan, Deputy Chief Oversight 
Counsel; David Greengrass, Senior Counsel; John Doty, Senior 
Advisor; Madeline Strasser, Chief Clerk; Susan Jansen, 
Parliamentarian/Senior Counsel; Sophie Brill, Counsel, 
Subcommittee on the Constitution, Civil Rights and Civil 
Liberties; Rachel Calanni, Professional Staff Member, 
Subcommittee on Immigration and Citizenship; Brendan Belair, 
Minority Staff Director; Bobby Parmiter, Minority Deputy Staff 
Director/Chief Counsel; Jon Ferro, Minority Parliamentarian/
General Counsel; Carlton Davis, Minority Chief Oversight 
Counsel; Ashley Callen, Minority Oversight Counsel; Danny 
Johnson, Minority Oversight Counsel; Jake Greenberg, Minority 
Oversight Counsel; and Erica Barker, Minority Chief Legislative 
Clerk.
    Chairman Nadler. The Judiciary Committee will come to 
order. Without objection, the chair is authorized to declare 
recesses of the committee at any time.
    We welcome everyone to today's hearing on ``Lessons from 
the Mueller Report, Part II: Bipartisan Perspectives.'' I will 
now recognize myself for an opening statement.
    Last week we heard from two former United States attorneys 
who exhaustively described President Trump's repeated efforts 
to undermine Special Counsel Mueller's investigation of 
Russia's interference in the 2016 elections. We also heard from 
President Nixon's former White House counsel who told us that 
the actions by this administration were substantially similar 
to the measures the Nixon administration took to undermine the 
Watergate investigation.
    But there is one important difference. Special Counsel 
Mueller was investigating a different kind of break-in. The 
target, a political campaign, was similar to that in Watergate, 
but the burglar was a hostile foreign nation. The crime was 
carried out through a hacking operation that stole hundreds of 
thousands of documents rather than the contents of a single 
safe, and the hacked documents were used extensively to affect 
the outcome of the election.
    Today's hearing will focus on Special Counsel Mueller's 
investigation of what Russia did to our democracy in 2016, and 
then what Russia is still trying to do to our democracy today. 
This is the second in a series of hearings designed to unpack 
the findings of Special Counsel Mueller's report so that we can 
discuss its implications, craft legislation, and make other 
recommendations to the House, as necessary.
    We have called this a hearing for bipartisan perspectives, 
not only to reflect the makeup of our witness panel, but 
because there should be broad consensus across the political 
spectrum that we cannot allow foreign nations to interfere in 
our democratic self-government.
    There should also be broad consensus that if a political 
candidate accepts help from a foreign nation, and even welcomes 
this attack on our democracy, that candidate has fundamentally 
betrayed the very institutions that he or she must swear an 
oath to protect.
    To be clear, the question before us is not merely whether 
campaign officials commit a crime when they take a meeting with 
foreign officials to discuss, quote, ``dirt on an opponent,'' 
or whether Federal law prohibits the candidate from publicly 
encouraging hacking operations from a foreign adversary. The 
question before us comes down to what we as American citizens 
are willing to accept from our leaders.
    Nearly 2 years ago, FBI Director Christopher Wray announced 
that the FBI was setting up a Foreign Influence Task Force 
designed to combat, quote, ``foreign influence operations,'' 
close quote, including, quote, ``covert actions by foreign 
governments to influence U.S. political sentiment,'' close 
quote.
    The FBI explained that the goal of these influence 
operations is to spread disinformation, sow discord, and 
ultimately undermine confidence in our democratic institutions 
and values.
    I cannot imagine that a single member of this committee 
would disagree that these operations are poisonous to our 
democracy and must be disrupted and dismantled to the fullest 
extent of the law.
    In fact, at our hearing last week, I was struck by a common 
theme in the remarks of some of our Republican colleagues. They 
acknowledged that we were attacked by a foreign adversary. They 
acknowledged that our election systems are not secure. They 
acknowledged that Congress must respond to these threats 
without delay. But then they urged us to stop talking about the 
findings in the Mueller report.
    Unfortunately, we cannot simply forget that the President's 
2016 election campaign encouraged Russia's actions, both 
privately and publicly. Our Nation's intelligence officials 
have made clear that Russia may do the very same things in the 
next election, or perhaps worse. Other hostile adversaries may 
try as well.
    Last week, to the alarm of Americans across the political 
spectrum, and likely to the alarm of the men and women in the 
law enforcement and intelligence communities who are working to 
prevent these attacks, President Trump stated in an interview 
that he would be willing to accept information about a 
political opponent from a foreign adversary such as Russia or 
China.
    First, when asked whether political candidates who are 
approached by foreign governments with this kind of information 
should call the FBI, President Trump responded, quote, ``You 
don't call the FBI, give me a break,'' close quote. When 
informed that, quote, ``The FBI Director says that that's what 
should happen,'' close quote, he responded, ``The FBI Director 
is wrong.''
    The next question was not confusing. President Trump was 
asked what his campaign would do if a foreign adversary like 
Russia or China, quote, ``offers you information on an 
opponent.'' He was asked, quote, ``Should they accept it or 
should they call the FBI?'' The President responded that maybe 
you do both, and went on to state, ``I think I'd want to hear 
it,'' and, ``They have information, I think I'd take it.''
    In fact, this time around the situation is even more 
alarming. President Trump was a private citizen during the 2016 
campaign. He now sits at the head of all of our Nation's 
intelligence and law enforcement agencies. He is provided with 
our Nation's most sensitive secrets on a daily basis. He has 
sworn an oath to protect and defend the Constitution against 
all enemies, foreign and domestic.
    But even with the benefit of all that guidance, and even 
with all of the authority and responsibility he has been 
granted, the President has said he is open to receiving 
information from a foreign adversary. In fact, by stating 
publicly that he would accept help from a foreign government, 
he may well have encouraged more foreign influence operations 
against our democracy.
    We heard some relevant testimony about this in the Hicks 
interview yesterday, and we will be releasing that transcript 
soon.
    The President's willingness to again welcome prohibited 
foreign assistance, now with a full understanding that the law 
prohibits it, is indeed shocking.
    The President may be willing to discard the lessons of the 
Mueller report, but we are not. With the 2020 election looming, 
we must act immediately to respond to the ongoing foreign 
threats we face, as well as to the President's apparent 
willingness to accept them.
    I look forward to today's critical discussion, and to 
learning every lesson we can so that this very recent, sorry 
history does not repeat itself.
    It is now my pleasure to recognize the ranking member of 
the Judiciary Committee, the gentleman from Georgia, Mr. 
Collins, for his opening statement.
    Mr. Collins. Thank you, Mr. Chairman.
    You know, the title of the hearing, as you have stated, is 
``Lessons From the Mueller Report, Part II: Bipartisan 
Perspectives.'' I think we will have our chance to hear this 
statement.
    I do have a concern that I want to bring up at the 
beginning, and this is a procedural issue.
    The chairman has every right to have the hearing. I am glad 
that he actually has listened to us that the affirmative 
finding out of the Mueller report was foreign interference, and 
we would like to talk about that.
    But yet when our side was asked--or we were asked what is 
the hearing schedule for this week, we were told we were going 
to get another rerun of obstruction. In fact, that was as late 
as of Monday night at 9 o'clock, we were told that this was 
going to be all about last week again and obstruction.
    Which, you know, look, it is up to the chairman to do 
whatever he wants to do and we respect that, but to actually 
have a good representation so that we can get appropriate 
witnesses and work with that, our witness is going to be--we 
are very happy to have him here. But it is something that we 
were caught unawares about, and I think it is something that if 
we can go forward, at least a knowledgeable heads-up would 
affect all, because I think foreign interference in election 
systems are things that we need to discuss, and we have talked 
about that with bills that are out there. But it should come up 
in a hearing in which we actually have asked for it. And you 
are not going to allow us to forget the rest of it, so don't 
worry about that, I am sure.
    As we go forward today, though, the special counsel 
finished his investigation, found no Americans, no one on the 
Trump campaign conspired or coordinated with the Russians. That 
was great news for America, and I thought it would be actually 
great news to all Americans. To my surprise--and really not 
really surprised--it wasn't.
    Democrats are not only disappointed, they are angry. Angry 
that the President was not a Russian asset, it seems. Imagine 
disliking a President so much that you wished he were a foreign 
agent. That is where the other party is today.
    Despite the conclusions the Mueller report came to, 
Democrats have spent the past few months trying to desperately 
revive their Russian conspiracy theory. The Democrats spent 2 
years calling the Mueller team the best of the best, but since 
they didn't like the outcome, Democrats now have to play 
prosecutor and redo the Mueller investigation.
    They launched their Mueller do-over when the chairman sent 
a document request to 81 individuals and entities connected to 
the President. We will call that the 81 investigation, as I 
call it. It was quickly abandoned in favor or Plan B.
    Plan B was Democrats manufacture a fight with the Attorney 
General. They issued a subpoena directing the Attorney General 
to violate the law by producing grand jury materials to 
Congress. Unsurprisingly, the Attorney General declined to 
break the law.
    Rather than engage in a traditional accommodation process, 
the chairman held the Attorney General in contempt in record 
time on flimsy grounds. Even their own witnesses admitted the 
subpoena was asking for illegal things.
    Did the chairman learn from this experience? No. The 
Democrats overplayed their hand again with Plan C when they 
subpoenaed testimony and documents from former White House 
Counsel Don McGahn. The Democrats subpoenaed McGahn knowing 
every President since at least the 1970s, including Presidents 
Clinton and Obama, claimed immunity over congressional 
testimony from close Presidential advisers. The Trump 
administration, like Clinton and Obama, claimed immunity over 
McGahn's testimony and McGahn did not appear.
    When Plans A through C failed to accomplish anything of 
substance, we decided to go in for the heavy artillery for Plan 
D. What was Plan D? Was it Mueller himself? No. That would have 
made too much sense. Was it a pivot to focus on the actual 
findings of wrongdoing in the Mueller report related to foreign 
election interference? No, that would have been productive.
    How do we focus on real issues facing America with the 
border crisis we don't do? No, that would have been too 
compassionate. Instead, Plan D was John Dean. Yes, the 
convicted felon from the Watergate scandal who spent 40 years 
telling everyone who will pay him that anything that walks is 
worse--that anything he did was and anything that happens now 
is worse than Watergate.
    The Columbia Journalism Review ran the headline, 
``Democrat's John Dean hearing is a flop.'' Washington Post 
columnist Karen Tumulty--no friend of the Trump administration, 
by the way--said, ``Perhaps the best thing that could be said 
about the hearing was that no one repeated a stunt quite like 
the one that we saw Representative Cohen pulled last month in 
that same room when he ate from a bucket of chicken.''
    The fact that Democrats believe the American public would 
be energized by John Dean, who has done nothing relevant since 
the 1970s, shows how desperate and out of touch they became. 
And that desperation actually showed last week when after the 
Dean hearing bombed and at least one member of the committee 
scolded MSNBC for ignoring the Dean hearing, not showing it 
enough.
    I hoped the John Dean hearing was an end to the circus. But 
because no matter how many times we relive the findings of the 
report, the conclusions will not magically change.
    Instead, we are ignoring more pressing issues. But as I 
said last week, our actions expose our real priorities. So what 
hearing did we include for this week? ``Mueller Report, Part 
II: Bipartisan Perspectives.'' Well, we know that we are here 
to discuss.
    Given the majority's action in preparing for this hearing 
and the notice that we were given, I fear that once again we 
were turning this committee into another circus. The Attorney 
General made the Mueller report public 2 months ago, we can all 
read it for ourselves, we have had some wonderful dramatic 
readings in here over the past week or two, and even yesterday 
in the Hicks interview, and we all know what it says: The 
lesson of the Mueller report is no conspiracy.
    Well, as everyone in my generation growing up, they 
realized that the summer season was after all the shows had run 
the whole season, it was time for reruns. Well, tomorrow is the 
official start of summer, it is time for rerun season. 
Yesterday's episode was Hope Hicks. Today's episode is before 
us.
    So with that, Mr. Chairman, without further ado, let the 
show begin.
    Chairman Nadler. Thank you, Mr. Collins.
    I will now introduce today's witnesses.
    Carrie Cordero is the Robert Gates Senior Fellow and 
general counsel at the Center for New American Security and an 
adjunct professor of law at Georgetown University. She is also 
the co-founder of Checks and Balances, an organization of 
conservative and libertarian lawyers dedicated to core 
constitutional principles and the rule of law. Ms. Cordero 
received her bachelor's degree from Columbia University and her 
J.D. from American University.
    Richard Hasen is Chancellor's Professor of Law and 
Political Science at the University of California, Irvine 
School of Law. From 2001 to 2010, Professor Hasen served as 
founding co-editor of the quarterly peer-reviewed publication 
Election Law Journal. He has authored more than 100 articles on 
election law issues. Professor Hasen received his bachelor's 
degree from the University of California, Berkeley and his 
J.D., M.A., and Ph.D. from UCLA.
    Alina Polyakova is the director of the Project on Global 
Democracy and Emerging Technology and a fellow in the Foreign 
Policy Program's Center on the United States and Europe and 
Security Strategy Team at the Brookings Institution. She is 
also an adjunct professor of European studies at the Paul Nitze 
School of Advanced International Studies at Johns Hopkins 
University. Dr. Polyakova received her bachelor's degree from 
Emory University and her doctorate from the University of 
California at Berkeley.
    Saikrishna Prakash is a James Monroe Distinguished 
Professor of Law and a Paul G. Mahoney Research Professor of 
Law at the University of Virginia School of Law. Before 
becoming a professor, Mr. Prakash clerked for Judge Laurence 
Silberman of the U.S. Court of Appeals for the District of 
Columbia Circuit and for Supreme Court Justice Clarence Thomas. 
He received his bachelor's degree from Stanford University and 
his J.D. from Yale Law School.
    We welcome our distinguished witnesses, and we thank you 
for participating in today's hearing. Now, if you would please 
rise, I will begin by swearing you in. Raise your right hands.
    Do you swear or affirm under penalty of perjury that the 
testimony you are about to give is true and correct to the best 
of your knowledge, information, and belief, so help you God?
    Thank you.
    Let the record show the witnesses answered in the 
affirmative.
    Thank you.
    Please note that your written testimony will be entered 
into the record in its entirety. Accordingly, I ask that you 
summarize your testimony in 5 minutes. To help you stay within 
that time there is a timing light on your table. When the light 
switches from green to yellow, you have 1 minute to conclude 
your testimony. When the light turns red, it signals your 5 
minutes have expired.
    Ms. Cordero, you may begin.

TESTIMONY OF CARRIE CORDERO, ROBERT M. GATES SENIOR FELLOW AND 
 GENERAL COUNSEL, CENTER FOR A NEW AMERICAN SECURITY; RICHARD 
HASEN, CHANCELLOR'S PROFESSOR OF LAW AND POLITICAL SCIENCE, THE 
     UNIVERSITY OF CALIFORNIA, IRVINE SCHOOL OF LAW; ALINA 
 POLYAKOVA, DIRECTOR, PROJECT ON GLOBAL DEMOCRACY AND EMERGING 
 TECHNOLOGY, AND FELLOW--FOREIGN POLICY, CENTER ON THE UNITED 
   STATES AND EUROPE, BROOKINGS INSTITUTION; AND SAIKRISHNA 
 PRAKASH, JAMES MONROE DISTINGUISHED PROFESSOR OF LAW AND PAUL 
 G. MAHONEY RESEARCH PROFESSOR OF LAW, UNIVERSITY OF VIRGINIA 
                         SCHOOL OF LAW

                  TESTIMONY OF CARRIE CORDERO

    Ms. Cordero. Thank you, Mr. Chairman, Mr. Ranking Member, 
members of the committee. Thank you for inviting me here today 
to support the committee's efforts to bring greater public 
awareness to the information in Special Counsel Mueller's 
report.
    The written statement I have submitted focuses on the 
national security aspects in Volume I of the report, including 
the special counsel's exposure of a sustained, systematic 
intelligence operation by the Government of Russia to interfere 
in the 2016 election, why foreign influence matters, and 
lessons we can draw from the report. My written statement also 
discusses how the chain of events surrounding the report's 
release negatively affected public understanding of the 
report's facts and findings.
    The Russian Government's activities to influence the 2016 
Presidential campaign was a foreign intelligence operation 
involving two main efforts.
    The first was a social media operation intended to 
influence American public opinion. The effort was successful in 
reaching millions of Americans through social media engagement, 
false online personas, and ad purchases.
    The second part involved computer hacking to steal and then 
release information from the Democratic Party campaign 
apparatus.
    There was a corollary to the social media operation which 
often gets overlooked. Russian online operatives caused real 
unsuspecting Americans to gather for political purposes, 
pretending to be grassroots activists.
    These operatives made virtual contact with and interacted 
with Trump campaign supporters and campaign officials. They 
organized rallies, including pro-Trump rallies in New York, 
Florida, and Pennsylvania.
    The Russians released hacked stolen information in two 
ways, through fake online personas--DCLeaks and Guccifer 2.0--
and through a surrogate--WikiLeaks.
    As discussed in my written statement, much of the 
information regarding WikiLeaks is redacted in the report, and 
given the harm that WikiLeaks has caused U.S. national security 
for approximately a decade, we should all be able to agree that 
regardless of meeting a criminal standard for prosecution, it 
is unacceptable, indeed disqualifying, for a U.S. political 
campaign to willingly accept information and consider crafting 
a public relations strategy around leaked information from 
WikiLeaks or any similar organization that, in the words of 
Secretary Pompeo when he was the CIA Director, quote, ``walks 
like a hostile intelligence service and talks like a hostile 
intelligence service.''
    These Russian activities to influence U.S. democratic 
institutions and pit Americans against each other are ongoing.
    Foreign influence, when conducted behind the scenes, clouds 
the policy debate and impacts decisions about Americans while 
crowding out the voice of Americans. Foreign intelligence 
services conducting their activities abroad know they are 
violating the domestic law of the country they target, but they 
don't care.
    Setting aside legality for a moment, it simply cannot be 
that it is acceptable for an American political campaign to 
accept foreign assistance in order to win an election.
    We have not done a good enough job explaining to the 
American public why foreign influence matters. If we allow 
foreign interests to invade our thinking regarding our choice 
of candidates, to invade our media outlets through releasing 
stolen information without understanding where it is coming 
from, and to possibly invade our voter registration and 
election infrastructure, we are not making decisions for 
ourselves.
    We cannot allow foreign interests to influence how 
Americans look at each other, how we speak to each other, how 
we interact with each other online. Foreign involvement in our 
elections undermines our democracy.
    Members of Congress have a duty to ensure that the 
government is protecting Americans from foreign influence. We 
are only 18 months away from the next election. My written 
statement includes examples of the types of legislative steps 
that Congress can take.
    On the leadership front, however, the duty is rooted in 
Members' oath of office and allegiance to the Constitution. The 
evidence in Volume I of the special counsel's report, in 
addition to recent public statements made by the President and 
his most senior advisers, cannot be ignored.
    One cannot faithfully defend the Constitution and be open 
to receiving foreign assistance to win an election at the same 
time and take actions to actively thwart the Federal 
investigation into those foreign influence efforts. The oath 
and those acts are incompatible. They should be of grave 
concern to this body, which carries its own constitutional 
responsibilities. We cannot write off what transpired in 2016.
    Right now, today, there is no whole-of-government strategy 
to counter foreign influence in elections, no Presidential 
leadership to secure our elections, no legislation passed by 
Congress to address election security or foreign influence. 
Instead, we have deflection and apathy and inaction.
    We cannot ignore the information in the special counsel's 
report. We cannot not care. We have to care and we have to act. 
We have to raise our expectations.
    Protecting Americans from foreign interference in our 
democracy needs to begin here. Protecting our constitutional 
system of checks and balances needs to begin here. Protecting 
our shared values, our free elections, and our American 
interests needs to begin here.
    Thank you.
    [The testimony of Ms. Cordero follows:]
    
    
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Chairman Nadler. Thank you very much.
    Professor Hasen.

                   TESTIMONY OF RICHARD HASEN

    Mr. Hasen. Chairman Nadler, Ranking Member Collins, and 
members of the Judiciary Committee, thank you for the 
opportunity to appear here today to speak about a matter that 
is among my greatest concerns I have had in 25 years of 
researching and teaching about American election law and 
campaign finance issues: the potential for continued illegal 
foreign interference in United States elections and a United 
States President's ill-advised encouragement of foreign 
government meddling.
    From Founding Fathers George Washington and Alexander 
Hamilton to Supreme Court Justices John Paul Stevens and 
Justice Brett Kavanaugh, American leaders have recognized that 
hostile foreign nations with, as Justice Stevens put it, no 
basic investment in the well-being of the country may attempt 
to interfere in American elections in order to manipulate an 
election's outcome or to curry favor with the winner.
    Justice Kavanaugh in the 2011 case Bluman v. Federal 
Election Commission held that the United States has a 
compelling interest in democratic self-government. This 
unanimous opinion upheld the ban on foreign contributions and 
expenditures in American elections, and the Supreme Court 
affirmed the ruling without even issuing its own opinion.
    Indeed, until President Trump came along there was broad 
bipartisan consensus that foreign interference in American 
elections undermines the idea that we the people, and not 
outsiders with interests adverse to the United States, get to 
choose American leaders.
    In the wake of unprecedented Russian interference in the 
2016 Presidential elections, and in light of statements made 
last week by President Trump that he saw, quote, ``nothing 
wrong'' with taking valuable information from a foreign 
government about an election opponent in the 2020 elections, it 
is worth considering both what current campaign finance law 
prohibits when it comes to foreign interference in elections 
and what steps Congress can and should take, consistent with 
the First Amendment, to ensure continued American self-
government.
    Volume I of the Mueller report revealed that agents of the 
Russian Government and military did three things. They engaged 
in a social media campaign to provoke and amplify social 
discord and eventually to support its favorite candidate, 
Trump. They stole emails from officials of the DNC, including 
campaign official John Podesta, and released them through 
WikiLeaks and other sources. And they, quote, ``targeted 
individuals and entities involved in the administration of 
elections,'' including State boards of elections and voting 
machine companies.
    The Department of Justice charged 13 individuals and 
entities affiliated with the Russian military with crimes 
related to these activities. We will never know the extent to 
which these Russian military activities influenced the outcome 
of the 2016 elections, but there is no question as to their 
intent. There is also little question that foreign powers will 
try to interfere again in 2020.
    The Mueller report should be a wakeup call for all 
Americans. Three key congressional improvements would be 
increased cybersecurity funding, extending the foreign 
expenditure prohibition and disclosure laws to all online 
advertising, and requiring campaigns to report contacts from 
foreign agents.
    But President Trump has not only failed to support these 
bipartisan measures, he has actually encouraged foreign 
meddling. In the 2016 election, Russian operatives targeted 
Hillary Clinton's personal offices approximately 5 hours after 
Trump remarkably encouraged the Russian Government to find 
Clinton's supposed 30,000 missing emails from her time as 
Secretary of State.
    As to the 2020 elections, Trump even more outrageously told 
ABC News' George Stephanopoulos he saw nothing wrong with 
taking, quote, ``opposition research'' about an opponent from 
the government.
    As explained in the Mueller report, this is illegal. The 
report cited Federal Election Commission authority for the view 
that opposition research counts as a thing of value under 
Federal law. The report stated, quote, ``A foreign entity that 
engaged in such research and provided resulting information to 
a campaign could exert a greater effect in an election, and a 
greater tendency to ingratiate the donor to the candidate than 
a gift of money or tangible things of value.''
    While some may question whether American campaign officials 
understood that a foreign donation or opposition research to a 
campaign was illegal in 2016, everyone, including the 
President, is now on notice that for 2020 this conduct is 
illegal. And yet, the President's statements appear to be 
another invitation to foreign governments to provide valuable 
information on his opponents.
    Legal or not, foreign government interference in American 
elections undermines our democracy and self-government. While 
it was the Russian Government supporting the Republican 
candidate in 2016, it could well be Russia or another country 
supporting a Democrat in 2020 or beyond.
    The goal of the Russians is to foment discord, something 
which should worry every American regardless of political 
party.
    Thank you for the opportunity to present these views. I 
welcome your questions.
    [The testimony of Mr. Hasen follows:]
    
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Chairman Nadler. Thank you.
    Dr. Polyakova.

                  TESTIMONY OF ALINA POLYAKOVA

    Dr. Polyakova. Thank you, Chairman Nadler, Ranking Member 
Collins, and distinguished members of the committee. It is a 
real honor and privilege to address you here today in this 
critical issue concerning our democracy. Thank you for inviting 
me to speak.
    I have submitted my written testimony for the record, which 
focuses on Russia's intent towards democracies, in particular 
the United States; Russia's political warfare against the West; 
and why these actions should be of deep concern to all of us 
here in the United States and elsewhere.
    First, a quick caveat. Throughout my oral comments, I refer 
to Russia as a shorthand to refer to the authoritarian regime 
of President Vladimir Putin, and in no way do I refer to the 
Russian people, who are indeed the primary victims of Kremlin's 
repressive regime.
    By now, it should be clear to all of us that Russia is 
engaged in a political warfare against Western democracies. As 
is accurately stated in the Mueller investigation report, its 
broader intent is to undermine trust in our democratic 
institutions, values, and principles, which the Kremlin sees as 
a threat to its own authoritarian model of control.
    The Kremlin's toolkit of influence is a 21st century 
adaptation of Soviet era active measures, which includes 
digital disinformation campaigns, cyber warfare, political 
infiltration, and the use of corruption to influence democratic 
politics.
    To date, the report and the investigation's related 
indictments from February 2018 and July 2018 against the 
Internet Research Agency, the so-called troll farm, and the 
Russian military intelligence, the GRU, provide the most 
comprehensive assessment of the continuing and evolving Russian 
threat.
    Today I will focus my comments primarily on the information 
operations that the Russian Government carried out against the 
United States, mainly because this is the area we continue to 
lag behind in addressing this critical threat.
    The Mueller report, which has been sustained by independent 
reporting, clearly shows that Russia's information operations 
were highly adapted to the political context of the United 
States, followed a well-thought-out strategic plan, and 
involved direction from Russian intelligence. They were also 
incredibly effective in infiltrating American media while 
influencing public debate around the 2016 elections.
    Their main objective was to undermine trust in our 
democratic process. The nature of that attack, as my colleagues 
have already stated, involved three interrelated parts: an 
information operation led by the IRA, a cyber hack and leak 
operation carried out by the Russian military intelligence, and 
infiltration operation of the Trump campaign.
    The information operations began as early as 2014, a full 2 
years before our Presidential elections. They resembled a 
marketing campaign using the tools provided by social media 
platforms.
    In brief, they proceeded in four phases:
    An initial phase of building a network of online accounts 
by impersonating American individuals, particularly on 
Facebook.
    By 2015, the second phase involved building audience growth 
by creating pages and content that were not necessarily 
political, even divisive, but simply meant to build increasing 
attention to IRA-controlled pages and accounts.
    By 2016, the IRA turned explicitly to the U.S. elections 
with the goal of undermining the Clinton campaign and 
amplifying social division.
    It was not until the late spring of 2016, so a few months 
before our Presidential elections that fall, that it turned to 
active promotion of then candidate Donald Trump. By the end of 
the 2016 elections, the IRA had the ability to reach as many as 
126 million people on Facebook and 1.4 million on Twitter.
    The IRA was part of a larger interference project funded by 
the Russian oligarch Yevgeny Prigozhin called Project Lakhta. 
Yet, due to the extensive nature of the redactions in the 
Mueller report, we still don't know the full scope of the 
command structure, how far into the Kremlin the decisionmaking 
process reached, and how the project continues to be funded 
today.
    The Russian operation against the United States does not 
stand alone. It fits into a much broader pattern of Russian 
nonkinetic activities, tested first and foremost in the former 
Soviet countries, most notably Ukraine.
    Russian influence operations also do not focus on isolated 
events. They do not stop when the ballot box closes. Rather, 
taken as a whole, they are the core of a political strategy 
honed in Europe's East and deployed against the West to weaken 
democratic institutions and sow discord in our societies.
    In my written testimony, I provide multiple examples of how 
the Russian Government has, since at least 2004, intervened and 
interfered in Ukraine's democratic processes and how it 
continues since the 2016 elections to interfere in the 
democratic societies of our allies in Europe.
    It is particularly concerning that many European far-right 
political parties have formal cooperation agreements with the 
Kremlin's United Russia Party, including the ruling party in 
Italy, called the League, and the Austrian Freedom Party, which 
has been until recently a coalition government with the center-
right in Austria.
    Thus, the operation targeting the United States 
Presidential election may have been the most prominent case of 
Russian political warfare, but has not been the last, nor will 
it be. That's because so far we have fallen behind in 
addressing this threat.
    In particular, the United States has fallen behind our 
European allies in imposing costs that would deter Russia from 
carrying out future attacks of this nature in the upcoming 
elections and other critical moments of concern to the Russian 
Federation.
    Whereas military strikes are much more readily felt, 
influence operations are not clearly felt by American people 
and other citizens in democratic societies. Yet, over time they 
are a slow drip that starts to burrow a hole in that delicate 
political contract between our institutions and our citizens, 
eroding democratic discourse and undermining the democratic 
process.
    The lack of consequences imposed on Russia for its attack 
on the United States sends a very clear message to other 
authoritarian regimes that they currently have an open door to 
further destabilize our democracy. We should not and cannot let 
this stand.
    Thank you.
    [The testimony of Dr. Polyakova follows:]
    
    
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Nadler. Thank you.
    Professor Prakash. I hope I pronounced it correctly.

                TESTIMONY OF SAIKRISHNA PRAKASH

    Mr. Prakash. You did. You did, Chairman Nadler. You did a 
great job, in fact.
    Good morning, Chairman Nadler, Ranking Member Collins, and 
members of the Judiciary Committee. Thank you for the 
opportunity to participate in today's hearings. I want to 
underscore that my views today are just my views, they don't 
represent the institution that I work for.
    I have four points today. I am going to be discussing the 
obstruction charges or the obstruction part of the report, Part 
II, not Part I.
    First, I want to emphasize that Presidents have broad 
constitutional powers over the Justice Department, including 
the FBI, and for that matter, special counsels. That is their 
constitutional job. Just as it is yours to make laws, it is 
theirs to execute the laws. It is a mistake, a fundamental 
mistake, to view Presidential involvement in prosecutorial 
decisions as if that were ipso facto sinister interference in 
DOJ matters.
    Second, the Mueller report does not demonstrate that the 
President committed obstruction of justice because the 
obstruction statutes do not apply to his official acts, and 
even if they did, we do not have clear proof that he committed 
obstruction of justice. Without more, the removal of James 
Comey and the attempted removal of Robert Mueller does not 
constitute a crime.
    Third, contrary to the DOJ, I believe Presidents may be 
prosecuted while in office. I do not believe they have any 
immunity. Unlike you, they don't have immunity in the 
Constitution. You have a privilege from arrest found in the 
Constitution, and you have a Speech and Debate Clause. There is 
no such provision for Presidents. That is obviously contrary to 
what the DOJ says. The DOJ is not likely to listen to me, they 
are more likely to listen to their own opinions, but I think 
the DOJ is wrong about that.
    And then fourth, and finally, the category of impeachable 
offense is incredibly broad. You are free to impeach the 
President whether or not he obstructed justice in a criminal 
sense. If you think he abused his power, you can impeach him 
for that reason. You could also impeach him if you think he 
violated the Emoluments Clause or the Appropriations Clause.
    So let me talk about Presidents and prosecutions.
    First, the Constitution makes the President the 
``constitutional executor'' of the laws, as Hamilton wrote 
during the Washington administration. The President's principal 
power is the power over law execution. And this was recognized 
had not only by Hamilton on multiple occasions, but by James 
Madison, and of course George Washington. George Washington 
supervised American prosecutors. He told them whom to prosecute 
and he told them whom not to prosecute.
    His successors did the same. John Adams would read the 
newspaper every morning and identify seditious writings and 
send them to his prosecutors. Now, the Sedition Act arguably 
was unconstitutional. It likely was unconstitutional. But the 
point is that John Adams was reading the paper and asking 
prosecutors to prosecute individuals. And Thomas Jefferson 
supervised prosecution as well. He was heavily involved in the 
prosecution of his former vice president, Aaron Burr. They did 
this all without statutory warrant.
    My second point is that the Mueller report, I think, 
assumes too quickly that the obstruction statutes apply to the 
official acts of government officials, including the President. 
I think that's a mistake.
    The obstruction statutes are written in broad terms. But if 
you apply the obstruction statutes to the President, they apply 
no less to the Department of Justice. It means that every 
department official is involved in influencing an 
investigation, which means they have satisfied the act and 
nexus requirements.
    The only question is whether they acted for a corrupt 
motive, which means it's possible that Robert Mueller and his 
aides committed obstruction of justice if they acted out of a 
corrupt motive.
    I think that's a silly reading of the statute. I do not 
believe the statute is meant to apply to the Department of 
Justice or other government officials, and I would not read it 
to apply to Robert Mueller, or for that matter, the President.
    Independent of that reading, the President has 
constitutional authorities over law execution, as I just 
mentioned. It is a mistake to read the obstruction statute 
written in general terms as if it applied to the President. 
There are many Supreme Court cases that choose not to read 
general statutes that are generaly applicable as if they apply 
to the President for fear that it would chill the President's 
constitutional conduct. And I think the courts would very 
likely apply that rule to the obstruction statutes for fear 
that it might chill the President's supervision of the Justice 
Department.
    So, for instance, if Bernie Sanders wins the next election, 
and Chris Wray is the FBI Director, and Bernie Sanders believes 
that Christopher Wray is misusing resources and dragging out an 
investigation of the Sanders administration, I think it is 
entirely permissible for Bernie Sanders to fire Chris Wray, and 
I don't think there should be an investigation merely because 
he did so. And I think that was the mistake at the outset. I 
don't know who authorized the investigation of obstruction, but 
I think it was a mistake because you can't infer an improper 
motive from the President's involvement.
    And let me end with this point. The obstruction report of 
Robert Mueller said that the President can get involved in the 
prosecution if he has political or policy motives, but not if 
he has personal motives.
    Everyone understands that the President had both motives, 
or could have had both motives when he chose to fire Comey. The 
personal motive would have been, ``I don't want him to 
investigate me.'' The politics or policy reason would have 
been, ``He is impeding my ability to conduct myself in this 
important office.''
    Anyone who was in an important office knows that their 
ability to carry out that office is impeded by an 
investigation, and if that is the reason, it is not corrupt and 
it is perfectly fine. The Mueller report says as much.
    And so once you understand that, and the Mueller report 
does say this in the footnote and in the text, you can see why 
it's really difficult to show that the President's motive was 
actual corruption.
    I see that I am over time. I welcome your questions.
    [The testimony of Mr. Prakash follows:] 
    
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Nadler. Thank you. And I will begin by recognizing 
myself for 5 minutes.
    Professor Prakash, first and very briefly, you said 
essentially something that we have heard a lot of people say, 
that the President has certain constitutional powers and that 
by excising those constitutional powers he can't commit 
obstruction of justice. He can fire someone for whatever reason 
he wants. Is that correct?
    Mr. Prakash. That is not quite what I believe, Chairman. I 
think you could have gotten that from my adumbrated comments. 
But if you have a chance to look at the testimony, my view is 
that we ought not to read a general statute as if it covered 
the President, just like we ought not to read it to cover 
Robert Mueller, and that if it does cover the President, it 
raises difficult constitutional questions.
    Chairman Nadler. All right. Let me ask you this. A Member 
of Congress has the absolute constitutional right to vote for 
or against a bill. But if he voted for or against a bill 
because someone gave him a bribe of $50,000, that would be a 
crime.
    Mr. Prakash. Yes.
    Chairman Nadler. The President has the right to fire 
somebody. But if he fired somebody or to do anything else 
within his constitutional power for an improper reason, like 
someone gave him a bribe, or because for any other improper 
reason, you would agree that that would be illegal.
    Mr. Prakash. Chairman, as you well know, the bribery 
statutes are about official conduct. It's hard to read a 
bribery statute as if it didn't reach official conduct. In 
constrast, the obstruction statutes aren't quintessentially 
about official conduct. Everybody is covered by it.
    So I think it's easier to read the bribery statute as if it 
covered official acts because, of course, to bribe someone in 
an official capacity involves----
    Chairman Nadler. You say some statutes cover official acts 
and others don't.
    Mr. Prakash. Some statutes clearly do because they say as 
much. Some have the deep implication that they do.
    Chairman Nadler. Thank you.
    Professor Cordero, you noted in your testimony that you are 
a co-founder of Checks and Balances, an organization of 
conservative and libertarian lawyers who are dedicated to core 
constitutional principles and to upholding the rule of law.
    As a conservative with an expertise in national security 
law, why did you find the President's statements last week 
about his willingness to accept opposition research from a 
foreign government so concerning?
    Ms. Cordero. Well, they are concerning because--so, first 
of all, in terms of the President's responsibilities as 
President, he is responsible for overseeing the national 
security of the United States. He has commander in chief 
responsibility.
    Receiving foreign assistance has been recognized throughout 
the entire history of the country as something that is counter 
and undermines the Constitution. He has an oath that he is 
defending the Constitution.
    There is no way that a President can or any official can 
willingly receive and indicate a willingness to receive foreign 
assistance, which we have not only constitutional principles 
that cut against receiving foreign assistance, they warn about 
foreign influence over our democracy. And Congress has passed 
statutes that try to provide transparency and get at the issue 
and uncover potential foreign influence on our democratic 
institutions and on Congress.
    So his being willing to receive that foreign assistance, I 
think, is simply incompatible with his role.
    Chairman Nadler. Thank you. And is it likely or plausible 
that the President's statements last week may encourage Russia 
or other foreign governments to engage in the same type of 
influence operations against our democracy in the next 
election?
    Ms. Cordero. Of course. They are paying attention. They are 
listening to everything that the President and his advisers and 
Members of this body say. So when he or anyone else indicates a 
willingness to receive foreign assistance, that is not just a 
signal, that is an invitation from a national security 
perspective to Russian intelligence and any other intelligence 
service that's out there that wants to try to find a way to 
influence our democratic processes.
    Chairman Nadler. Thank you.
    Professor Hasen, you've explained why providing opposition 
research to a political campaign counts as a campaign 
contribution or a thing of value for purposes of campaign 
finance law. In fact, don't campaigns often pay a great deal of 
money for opposition research?
    Mr. Hasen. I should correct you that it is Hasen.
    Chairman Nadler. Hasen. I'm sorry.
    Mr. Hasen. The use of or the sale of opposition research or 
polling data has been found by the Federal Election Commission 
to count as a thing of value for purposes of the campaign 
finance laws, and giving it in-kind, if its value is over the 
value that is allowed as a contribution, can be illegal. That's 
been recognized by the FEC.
    Chairman Nadler. Thank you.
    So if a foreign government provides opposition research to 
a campaign for free, that can constitute a significant in-kind 
donation, correct?
    Mr. Hasen. Yes, and the Mueller report noted it could be 
worth much more than some kind of dollar value contribution.
    Chairman Nadler. Thank you.
    You've also explained that U.S. law prohibits any foreign 
national from contributing to State or Federal election 
campaigns. You described a decision that then Judge Kavanaugh 
wrote in 2011 upholding the ban on foreign election 
contributions.
    Is it fair to say that in that opinion, Judge, now Justice 
Kavanaugh described the United States as having a compelling 
interest in preventing foreign influence in U.S. elections?
    Mr. Hasen. Yes. He recognized an interest in democratic 
self-government, and the Supreme Court thought the proposition 
was so obvious that it summarily affirmed his decision and 
didn't even schedule a hearing on the case.
    Chairman Nadler. Did anybody in the court or on the Supreme 
Court disagree?
    Mr. Hasen. No.
    Chairman Nadler. Thank you.
    Professor Prakash, although I disagreed with you on many 
other points, I'm in full agreement with your argument that the 
Constitution does not grant the President any privileges or 
immunities from prosecution. In fact, you say the Constitution 
does not grant the President, quote, ``any sort of privileges 
or immunities.''
    Would you agree then that White House advisers cannot claim 
they're, quote, ``absolutely immune,'' unquote, from having to 
testify before Congress based on a theory that they act as the 
President's alter egos?
    Mr. Prakash. Chairman Nadler, I'll tell you what I tell my 
class. I agree with you 110 percent. But I think, 
unfortunately, administrations for the past several decades 
have claimed this privilege and Congress has been unable to 
stop them. So I agree with you that people who work for the 
President should be forced to testify before Congress.
    Chairman Nadler. Except for when you can establish 
executive privilege, I assume.
    Mr. Prakash. Well, I don't want to talk about executive 
privilege. But I am on the record as saying I don't believe 
there is an executive privilege, certainly not vis-a-vis 
Congress.
    Chairman Nadler. Okay. My time has expired.
    The ranking member, Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    A couple of things that are concerning. One, I think this 
committee at times acts like a hypochondriac, we like to talk 
about the symptoms and not get into the disease.
    I don't disagree with the three Democratic witnesses. This 
is what we should be doing. We shouldn't be having to hear from 
you that it should be. We've got bills actually in queue that 
we could be having this hearing on.
    I'm glad you all are here today, but you don't need to be 
here. We're like hypochondriacs just talking about symptoms and 
there are actually cures out here that we can begin working on. 
We appreciate you being here, but it's absolutely adding 
nothing to getting anything done as we go forward, which 
concerns me.
    Because this is very obvious from the opening statements 
here that--Mr. Chairman, we were under, again, the 
understanding this was to be an obstruction hearing, and as 
late--and we have emails to state to this--as late as 9 on 
Monday night, which could have had, you know, again, a better 
discussion of what you're wanting to discuss. And we could all 
still be hypochondriacs and talk about the symptoms when we 
could have scheduled even a markup to deal with bills that are 
actually in the queue.
    So I just have a few questions here that we look at. One, I 
would like to ask each witness very quickly, when were you 
first contacted by committee staff about testifying at today's 
hearing? Starting, Ms. Cordero, with you.
    Ms. Cordero. I don't remember the date, Mr. Ranking Member. 
I think I've talked to staff----
    Mr. Collins. When were you asked about appearing today? And 
give me a week, 2 weeks, whatever. Appearing today, actually 
today.
    Ms. Cordero [continuing]. At least--maybe--at least a week 
ago. I'm sorry, I don't remember the date. At least a week ago.
    Mr. Collins. No problem. Just general is fine.
    Ms. Cordero. Yeah, at least a week ago.
    Mr. Hasen. Saturday evening.
    Dr. Polyakova. Monday.
    Mr. Collins. And I know when we contacted you, but go ahead 
and state it for the record.
    Mr. Prakash. I believe Thursday or Friday of last week.
    Mr. Collins. Okay.
    You know, again, I think this is an interesting thing. And 
as the committee can work together on many things, I think the 
concern is, is that we have to be exceedingly, unfortunately, 
hostile or hide the ball on everything, and this is just not 
the way this one should be.
    And it is very frustrating for us on this side, preparing 
for one thing, and finding out as late as--you know, for us not 
even finding out you were the ones who were going to be 
testifying until really basically Tuesday morning, and finding 
out some of you weren't even attached until this weekend, which 
says after we were told what was going to be happening they 
called you.
    So this is a hide the ball problem, Mr. Chairman. It needs 
to not happen as we go forward.
    One of the aspects, though, of this, going back to 
obstruction, was an interesting issue that we want to talk 
about. An important aspect of national security is maintaining 
secrecy of classified information, avoiding leaks, whether the 
leakers are foreign or domestic.
    We know that Director Comey leaked internal FBI memos 
containing classified information to the media through Columbia 
Professor Richman.
    Mr. Prakash, would you like to--would you consider that 
problematic?
    Mr. Prakash. I don't know if the memo was classified, but, 
of course, if it was, it certainly would be problematic.
    Mr. Collins. You know, as we have confirmed through the 
special counsel and the investigations and the evidence after 
his 2-year investigation of the no underlying collusion or 
crime, it is certainly--former Director Comey certainly did not 
have evidence of conspiracy, it was shown that, and that came 
out in the Mueller report.
    So I find it especially troubling that Mr. Comey leaked 
documents to help--that helped spark, by many accusations, the 
appointment or influence of the special counsel's 
investigation.
    If it would be so in the way he leaked this, would that--
and we are discussing obstruction here--in doing so, could that 
leaking constitute an obstruction of justice?
    Mr. Prakash. Mr. Comey was a private citizen when he leaked 
those memos. If he leaked them for a personal motive--namely, 
to get back at the President for firing him--under the special 
counsel's report, that would be a corrupt motive.
    If, on the other hand, he did it out of public interest, 
that it wouldn't be, which of course is the problem with trying 
to figure out whether something is corrupt or not, both for 
this factual pattern that you've suggested, but also for the 
President.
    Mr. Collins. In looking at this--so the problem you just 
hit there was exactly the same thing that was discussed in the 
Mueller report and how this actually ended up, and, again, 
after it was passed on by the special counsel, given to the 
Attorney General and the Deputy Attorney General, who said it 
did not have corrupt motives, was mentioned there. And also 
basically took into account that they took no counsel from 
their own department, that they took that into consideration. 
They said, no, after looking at this, there's nothing there to 
charge.
    The special counsel in his report spent a great deal of 
time discussing the episode related to Mr. McGahn writing a 
memo to the file. What is your view of this episode vis-a-vis 
obstruction, Professor?
    Mr. Prakash. It entirely turns on whether the President 
thought that he was asking McGahn to create a false memo. And 
the report is equivocal on this point because, of course, the 
report doesn't know.
    The President has forgotten things in the past. There's an 
episode from ``Fear,'' the Bob Woodward book, where the 
President asks for a document to withdraw from the Korean-U.S. 
trade agreement. He gets it put on his desk. They snatch it 
back because they don't want him to sign it, his aides, and he 
forgets that he asked for it because he asked for it again and 
doesn't ask why it wasn't given to him.
    So people are forgetful. It's quite possible that the 
President didn't realize that he had asked Don McGahn to have 
Special Counsel Mueller fired.
    Mr. Collins. At this point in time, Mr. Chairman, like I 
say, we will continue this again. What could have been an 
actual productive markup of bills that actually could have went 
toward obstruction--not the obstruction, the election 
interference that we've talked about, the foreign interference 
that we have talked about that your three witnesses elaborated 
beautifully on. I'm glad they elaborated beautifully on it.
    But we've already begun this process. I've already asked 
for it. We could have had a markup today. Instead, we're having 
a rerun. And especially, from our perspective, something that 
we could have participated in, in a different way. Our witness 
is here, and an excellent opportunity to do that, but not in 
the way that was done to us. And in the future, I would hope 
that we could communicate better in that regard.
    With that, I yield back.
    Chairman Nadler. I thank the gentleman.
    The gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you for holding this 
hearing. And certainly I acknowledge and thank the presence of 
the ranking member.
    This is the task and job that is the responsibility of the 
United States Congress. And I want to thank the witnesses for 
their presence here. I want to be as close to my questioning 
time.
    Mr. Prakash, did I hit it nearly?
    Mr. Prakash. You both are 2 for 2. Perfect. Thank you.
    Ms. Jackson Lee. Let me thank you for your presence here 
today.
    I wanted to just pick up on the executive privilege. My 
understanding of what you just said was that executive 
privilege should not be rendered as it relates to Congress. Is 
that correct?
    Mr. Prakash. That's exactly right. I'm not sure there's an 
executive privilege at all, either vis-a-vis the courts or 
Congress. But I am more confident of my view vis-a-vis 
Congress.
    Ms. Jackson Lee. I appreciate that. We had a witness 
yesterday, Ms. Hope Hicks, and I believe it is certainly 
present in the media that there was a significant amount of 
executive privilege. And so you would characterize--you would 
raise questions about that?
    Mr. Prakash. Well, I think, you know, Representative, my 
view is a minority viewpoint. It is certainly not held by the 
Department of Justice or the President's office. And that's 
true for Republican and Democratic Presidents. They both 
claim----
    Ms. Jackson Lee. Well, your view is a thoughtful view. And 
I would think that the exercise of executive privilege so 
extensively yesterday was an abuse of the rights of this 
Congress. And so I thank you for your addition to that to the 
record.
    Let me ask this question of Ms. Cordero. In the report they 
talked about--and thank you--they talked about the idea of the 
involvement of Russia, and let me just read this to you.
    First they talked about a Russian entity known as the 
Internet Research Agency carried out a social media campaign 
that favored Presidential candidate Donald J. Trump and 
disparaged Presidential candidate Hillary Clinton. The IRA's 
goals evolved from general attempts to sow political and social 
discord in the United States to targeted operation that by 
early 2016 favored candidate Trump.
    Second, Russia's main intelligence directorate of the 
General Staff of the Russian Army, known as GRU, conducted 
computer intrusion operations against entities, employees, and 
volunteers working on the Clinton campaign and then released 
documents.
    How damaging, troublesome, dangerous is that?
    Ms. Cordero. As the special counsel has said in the report 
and in his remarks that he gave at the Justice Department, this 
was a systematic intelligence operation against the United 
States, against our democratic processes.
    And I would emphasize that according to current U.S. 
intelligence statements by intelligence community leaders, this 
is an ongoing issue. It's not just limited to the past, it 
wasn't just 2016, it's ongoing.
    Ms. Jackson Lee. But how dangerous is it in reflection of 
2016 to have Presidential candidates and/or their operatives 
willingly and excitingly engaging with the extent? I mentioned 
intelligence agencies, I mentioned the GRU, of course, some of 
them were indicted. They have obviously not come back for 
prosecution. But how dangerous is that?
    Ms. Cordero. Well, it's really inconceivable that----
    Ms. Jackson Lee. And it is dangerous?
    Ms. Cordero [continuing]. A Presidential candidate would be 
willing to receive information that the campaign had reason to 
know was coming from Russian Government-supported efforts. In 
other words, the work that is laid out in the special counsel's 
report has a variety of different examples of how the campaign 
knew it was coming.
    It would have been more understandable had the campaign 
been able to say, ``We didn't understand.'' But instead, 
there's a particular reference to Deputy Campaign Chairman 
Gates, where he told the special counsel, because it's in the 
report, that they actually were going to create a press 
strategy around the WikiLeaks releases. And there's a whole 
history of information about----
    Ms. Jackson Lee. Thank you.
    Mr. Hasen, quickly, based on your knowledge, can the lines 
regarding what counts as coordination between campaign and 
outside group often become blurry? And this is based upon the 
relationship and the campaigns of 2016, in particular the Trump 
campaign.
    Mr. Hasen. I don't understand the question.
    Ms. Jackson Lee. In election law questions about campaigns 
coordinating with outside entities often arise in the context 
of rules governing super-PACs and independent expenditures. 
Based on your knowledge, can the lines regarding what counts as 
coordination between a campaign and outside group often become 
blurry?
    Mr. Hasen. Yes.
    Ms. Jackson Lee. And in that instance, would you look back 
on the 2016 Trump election and see the difficulty in what the 
Trump campaign was doing and its dangerousness?
    Mr. Hasen. Well, in terms of the coordination with super-
PACs, I think there's a general problem across both sides of 
the aisle with coordination between campaigns and outside 
groups that support them.
    What's especially different with the Trump campaign was the 
potential for coordination with a foreign entity, which is 
something that we do not normally see in our----
    Ms. Jackson Lee. Should that be reported immediately, a 
duty to reported?
    Mr. Hasen. I think it certainly would be good practice to 
report any attempt and to rebuff any efforts, and certainly 
to--and we don't know if this happened--to speak to the 
campaign's general counsel and alert them, who was Don McGahn 
at the time, and alert them that there's been an approach by a 
foreign entity that is trying to provide information to the 
campaign.
    Ms. Jackson Lee. I thank you.
    Chairman Nadler. I thank the gentlelady.
    The gentleman from Ohio, Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    Just a couple of points before asking some questions here.
    First of all, the Russian interference that's been 
discussed here by the panel this morning, this didn't happen 
under President Trump's watch; this happened under President 
Obama's watch. It was the Obama administration that saw all 
this happen and had evidence of it, knew it was going on, yet 
did nothing. It was the Obama administration.
    Secondly, relative to what was done wrong, whether there 
was collusion with the Russians, a lot us, including myself, 
reserved our judgment until the Mueller report came in. Let's 
not forget that the Mueller report ultimately indicated that 
there was no collusion between Donald Trump or his campaign 
with the Russians. Secondly, the Attorney General concluded 
that there was no obstruction of justice.
    Yet here we are again in another hearing relative to a 
matter which has essentially already been decided. We're 
wasting our time; we're chasing our tails. It is taxpayer money 
that's paying for all this.
    It's really a faux impeachment, because, whereas the 
hardcore, hate Trump, Democrat base despises this President, 
wants him impeached, the Democrats still refuse to move forward 
on impeachment because they know that will blow up in their 
face politically. So we're having hearing after hearing after 
hearing about what? Really about nothing.
    Last week, John Dean. Yesterday, Hope Hicks. Who are we 
going have to have next week? Sean Hannity? It's anybody's 
guess.
    In the meantime, there are significant, real issues that 
are being ignored by this committee and this Congress.
    For example, last month alone, 145,000 illegal immigrants 
flowed into this country--145,000 in 1 month. We're rapidly 
becoming a vast international territory between Mexico and 
Canada. Now, I need to attribute that to our committee scholar, 
Tom McClintock, who used that definition yesterday, and I think 
it's a good one, although it's unfortunate.
    Another issue: We've got a $22 trillion debt hanging over 
all our heads. This is the committee that could pass something 
that I've introduced, and that's a balanced budget amendment 
requiring to us do what every State has to do, balance its 
budget. But, no, we're not doing that.
    We've got 70,000 people that died of opioid addictions last 
year. Are we devoting any attention to that? Not really. 
Certainly not enough.
    Maybe we ought to be focusing on some of those real issues 
that really matter. Just a suggestion.
    Professor Prakash, let me ask you this. This committee has 
spent a lot of time relitigating the Mueller report, as I just 
indicated, in fact, over and over. Democrats on this committee 
and in the media have promoted the narrative that not only has 
the President obstructed justice in relation to the Mueller 
investigation but the President is now allegedly obstructing 
Congress.
    And just last week, Democrats approved a resolution that 
authorized lawsuits against Attorney General Barr and former 
White House Counsel Don McGahn to enforce subpoenas issued by 
Democrats on this committee. How would you assess the merits of 
such a lawsuit?
    Mr. Prakash. Representative, I guess I'm on record as 
saying I don't believe that the President should be able to 
invoke privilege against Congress, and I have that view.
    I don't think the courts will share that view. As you know, 
the courts have essentially required that Congress and the 
President negotiate over these claims of executive privilege 
and have then only reluctantly thereafter intervened.
    Mr. Chabot. So you think it's likely they're going to fail 
in the courts.
    Mr. Prakash. I actually don't know whether they're going 
fail or not. You know, I don't know what the courts will say. 
But I do know that they seem to want to have you folks 
negotiate with the President first before they adjudicate the 
dispute.
    My personal view about executive privilege, I happen to 
believe it's right, but it's just my personal view.
    Mr. Chabot. Okay. Thank you.
    Many of the acts of alleged obstruction involve the 
President exercising his Article II authority, as you've 
mentioned. Can you explain the difficulty in finding corrupt 
intent to obstruct justice when the President is carrying out 
his Article II powers?
    Mr. Prakash. It all turns on why you think he's doing what 
he's doing.
    So, if the President thinks to himself, I'm having a 
difficult time interacting with foreign leaders because they 
can't take me seriously and they're worried about how long I'll 
be around, that is not a corrupt motive. The Mueller report 
says as much.
    If, on the other hand, you think he's solely focused on his 
own skin and his own personal reputation, that would be a 
personal and, the report says, therefore, a corrupt motive.
    Mr. Chabot. Thank you.
    I am also out of time, so let me get one more in here.
    Relative to the President's power to remove executive 
branch officials, do you believe the President committed a 
crime when he fired James Comey?
    Mr. Prakash. Absolutely not.
    Mr. Chabot. Okay.
    My time has expired. I yield back.
    Chairman Nadler. The gentleman's time has expired.
    The gentleman from Tennessee, Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chair.
    I have noticed some constituents of mine from my ZIP Code, 
let alone my district, here. And I'm so happy they're here. 
Because they get to see what I have to put up with week after 
week after week: colleagues who come here and say that the 
Mueller report, which they obviously haven't read, says no 
collusion.
    Mr. Chabot. Would the gentleman yield?
    Mr. Cohen. Collusion is not even mentioned----
    Mr. Chabot. Would the gentleman yield?
    Mr. Cohen [continuing]. In the Mueller report.
    Mr. Chabot. I've read the report, and I think most of us 
have.
    Mr. Cohen. Collusion is not even mentioned in the Mueller 
report. The issue was conspiracy. Number one.
    Number two, it says no--the Mueller report said no 
obstruction. The Mueller report did not say that. The Mueller 
report said, if we could find that the President didn't commit 
a crime, we'd say that. And it said, we do not in any way 
exonerate him from committing obstruction of justice.
    Mr. Chabot. Would the gentleman yield?
    Mr. Cohen. And we hear also----
    Mr. Chabot. I said the Attorney General said that.
    Mr. Cohen. Would you hold him out of order? It's my time.
    Chairman Nadler. The gentleman is out of order.
    Mr. Cohen. And he says we have hearings about nothing. 
Hearings about nothing? Hearings about the Russians interfering 
with our elections that is in the Mueller report, that is the 
whole first half of it, and tells us that the Russians 
interfered with our elections? And we hear we're having 
hearings about nothing.
    This is not 38112. This is not reality. This is the 
Judiciary Committee. And it's sad. The Russians did interfere.
    Ms. Cordero, you said that the Russians did interfere, and 
you said that it would be disqualifying that a political team 
would craft a message around WikiLeaks or around the social 
media, and you said it's in conflict with the oath of office 
that the President takes to faithfully execute the laws of our 
Nation and taking that--and also taking foreign information on 
an election, which President Trump said he would do.
    If this committee gets into an impeachment inquiry, do you 
believe these are areas that should be looked into?
    Ms. Cordero. Yes. I think if this committee were to 
initiate an impeachment inquiry, there is a variety of things 
that they could look into.
    One of the most important would be the matters discussed in 
Volume II of the report. I think the special counsel's report 
lays out, at a minimum, four to potentially six acts of 
potential obstruction that the committee could continue.
    The second probably most important thing that is in the 
report that the committee would want to look at is the prior 
campaign's willingness to receive foreign assistance, be the 
beneficiary of a foreign intelligence operation, and, almost 
more significantly, current statements indicating a current and 
future willingness to take that assistance.
    Mr. Cohen. Thank you, ma'am.
    Professor Hasen, you've said that the Mueller report said 
that opposition research was illegal. Do you have the--you said 
the Mueller report cited that taking opposition research from a 
foreign nation would be illegal. Is that correct?
    Mr. Hasen. So I'm looking at the report on--it's pages--it 
starts on pages 184, 185. And then it talks about, going on to 
186, Federal Election Commission rulings, so holding that 
opposition research counts as a thing of value. And from that, 
the report concludes that accepting it can be considered 
illegal.
    Although it does note there's no judicial decision. That 
issue never came to a court, so there was no judicial decision 
holding that. But that's what the Federal Election Commission 
authority so holds.
    Mr. Cohen. And if we had an impeachment inquiry, the 
Congress could certainly take that into consideration. Is that 
not true?
    Mr. Hasen. Yes.
    Mr. Cohen. And let me ask you this. If the report says, the 
Mueller report says, that taking opposition research is 
something of value and therefore illegal to take, if President 
Trump, who said he read the Mueller report, read it, would you 
presume, as Professor Prakash has said, maybe he just forgot 
that he read that? Or did he not read it? Because he obviously 
doesn't understand it.
    Mr. Hasen. Well, I don't know what the President reads or 
doesn't read, but I can tell you that----
    Mr. Cohen. I suspect the latter part of your answer is the 
most voluminous, what he doesn't read.
    Dr. Polinka--Polyakova----
    Dr. Polyakova. Polyakova.
    Mr. Cohen. I'm sorry. The Russian military was definitely 
involved in this, right?
    Dr. Polyakova. Yes.
    Mr. Cohen. Would that have had to come from Putin? You 
mentioned the oligarch, but the oligarch wouldn't have done it 
on his own, would he?
    Dr. Polyakova. I would just correct to say that we know 
from the report that it was the Russian military intelligence 
arm that was involved.
    It is my understanding, from how the Russian state 
functions, that there are several proxies that do the bidding 
of the Kremlin. And it is very likely that there was a guiding 
principle sent to various proxy agencies, including GRU, 
including Mr. Prigozhin, who is extensively mentioned in the 
report, to carry out an operation against the United States.
    We don't know, because of various redactions, if Mr. Putin 
himself gave that order or not, but very likely he was very 
well aware of what was happening.
    Mr. Cohen. Thank you.
    And I yield back the remainder of my time.
    Chairman Nadler. I thank the gentleman.
    The gentleman from Ohio, Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Professor Prakash, you got an undergraduate degree from 
Stanford, law degree from Yale, and you're a professor at the 
University of Virginia. It's not the Big Ten, but that's pretty 
darn impressive.
    And your focus is on the Constitution. Is that right?
    Mr. Prakash. Yes.
    Mr. Jordan. All right. So, about, I don't know, 10, 12 
weeks ago, the Attorney General testified in front of the 
United States Senate, and the Attorney General said some 
interesting things.
    He said, first of all, there was a failure of leadership--
talking about the origins of the Trump/Russia investigation. He 
said there was a failure of leadership at the upper echelon of 
the FBI. We certainly know that's true. Everyone who ran the 
FBI in the Obama administration has been fired, demoted, or 
left, and two are under investigation by the Justice 
Department.
    He then said spying occurred. He said it twice.
    Third, he said there was a basis for his concern about the 
spying that took place--namely, was it properly predicated.
    And, finally, he used two terms that I think should 
frighten every single American citizen. He used the term 
``unauthorized surveillance'' and ``political surveillance.''
    Are you troubled by or concerned by, as a constitutional 
law professor, concerned by some of the things that the 
Attorney General raised in his testimony a few weeks back in 
front of the Senate?
    Mr. Prakash. Representative Jordan, I don't know--and I 
wasn't here to talk about that. But, of course, I think 
everybody ought to be troubled by the prospect that the tools 
of investigation might be turned against opponents. Of course, 
if this administration did this to the Democratic nominee, I 
would be troubled by that as well.
    Mr. Jordan. So would I.
    Mr. Prakash. Of course, I agree with the Attorney General. 
The question is whether it was, you know, adequately 
predicated.
    Mr. Jordan. Well, let me give you a couple things we do 
know. Bruce Ohr worked at the Justice Department. When we 
deposed him, he told us a few interesting things about the now-
famous dossier. Specifically, he told us that he had informed 
the FBI that the Clinton campaign paid for the dossier.
    Second, he told us that Steele was biased against the 
President, so much so that Steele had conveyed to him and he 
had conveyed to the FBI that he was desperate to stop Trump 
from getting elected.
    Third, he told them that Fusion GPS worked with Steele to 
put this dossier together, who was the entity directly hired by 
the Clinton campaign.
    And, finally, fourth, he told him his wife worked for 
Fusion GPS.
    And we know that, when the FBI went to the secret court, 
the FISA court, they didn't convey any of those four important 
facts to the court. Does that trouble you, Professor?
    Mr. Prakash. Yes, it does.
    Mr. Jordan. Care to elaborate?
    Mr. Prakash. Well, I think, look, if the political 
polarities had been reversed, I think other people would be 
quite disturbed by the sequence of events, right? That is to 
say, if it had been a Democratic administration--sorry--a 
Republican administration that started this investigation in 
part based on a foreign dossier paid for by political 
operatives, I think, you know, the other party would be quite 
upset.
    So I think it merits investigation as to, you know, why 
this investigation, why this, you know, surveillance or spying, 
if you will, began.
    Mr. Jordan. Let me ask you about one other statement made 
by Democratic Senator Schumer on January 3, 2017, talking about 
President-elect Trump and talking about the intelligent 
community. Then the highest ranking Democrat in the United 
States Congress said this: ``When you mess with the 
intelligence community, they have six ways from Sunday at 
getting back at you.''
    Does that statement trouble you? When you think about how 
our constitutional system and unelected bureaucrats are 
supposed to answer to elected officials, elected by we, the 
people, does that trouble you, Professor?
    Mr. Prakash. It does. In my written testimony, I say there 
are portions of the Mueller report that suggest that any 
involvement by the President in ongoing investigations is 
impermissible or improper, and I think that's a mistake. I 
don't think it's possible to say that all such involvements are 
impermissible.
    So I think it's a mistake to threaten a sitting President 
with the use of official resources as a means of retaliation 
against the President for looking into possible wrongdoing.
    Mr. Jordan. Yeah. Last time I checked, Peter Strzok and 
Lisa Page never had their name on a ballot. They were never 
elected to anything. Yet they ran the two most important 
investigations that, frankly, in my time in Congress, I have 
been--I've seen. Their name was never on a ballot.
    How about this statement? How about when Emmet Flood wrote 
the Attorney General of the United States and said this? ``We 
would all do well to remember, if they can do it to a 
President, imagine what they can do to you and I.''
    That's what scares me more than anything else. If the 
intelligence community can do what I suspect they did and I 
think they did--and I believe more and more evidence points to 
it--and this is what the Attorney General and John Durham, U.S. 
Attorney, are now looking into--if they can do this to a 
President of the United States, they can do it to anyone in 
this country.
    And that's what I believe, Professor, this committee should 
be primarily focused on.
    Think about, the President was falsely accused of 
conspiracy with Russians to influence the election. Do we 
investigate how that false accusation happened? Or do we 
continue to investigate something Bob Mueller spent 22 months 
on and came back with no collusion, no conspiracy, no 
coordination?
    And, frankly, it wasn't just 22 months, because when Jim 
Comey was deposed by us last Congress, we asked him this 
question; he said after 10 months of the FBI's investigation 
they had zero evidence.
    So, after 32 months of investigating something, zero 
evidence of it. And yet this committee wants to continue to go 
down that road versus maybe looking into how this whole thing 
began in first place.
    And there was a question in there somewhere, Professor, if 
you want to respond.
    Mr. Prakash. I wouldn't presume to tell this committee what 
it ought to do, but I support the Attorney General's 
investigation as to why this whole process began.
    Mr. Jordan. Thank you.
    I yield back.
    Chairman Nadler. Thank you.
    I would remind the gentleman that the investigation was not 
predicated on--it's well-established the investigation was not 
predicated on the Steele dossier but, rather, on the 
testimony--on the observation of Mr.----
    Mr. Jordan. I don't think I said that. I think I asked the 
constitutional law professor if that was what appropriate, to--
--
    Chairman Nadler. The gentleman does not have the time.
    Mr. Jordan [continuing]. Do what they did in front of the 
FISA court.
    Chairman Nadler. The gentleman----
    Mr. Jordan. I didn't ask him whether it was predicated----
    Chairman Nadler. The gentleman does not have the time at a 
moment.
    Mr. Jordan. I'm responding to what you just said----
    Chairman Nadler. You're not responding, because I'm in the 
middle of saying something.
    Mr. Jordan. You already said something, and I'm responding.
    Chairman Nadler. I would remind the gentleman of three 
things.
    One, the investigation was predicated on the incident with 
George Papadopoulos.
    Two, that the Steele dossier, insofar as it was used in the 
application to the FISA court, the FISA court was informed in 
the memo that the information in the dossier was unreliable and 
came from a----
    Mr. Jordan. That's laughable.
    Chairman Nadler [continuing]. From a source that was paid 
for by the Clinton campaign. And--period.
    I recognize the gentlelady from California.
    Mr. Biggs. Parliamentary----
    Ms. Lofgren. Thank you, Mr. Chairman.
    Mr. Biggs [continuing]. Inquiry.
    Chairman Nadler. The gentlelady from California is 
recognized.
    Mr. Biggs. Parliamentary inquiry.
    Ms. Lofgren. In my time you're making a parliamentary 
inquiry?
    Mr. Biggs. I had stated it before you started, Ms. Lofgren. 
I'm sorry. But I'd request a parliamentary inquiry.
    Chairman Nadler. The gentleman will state a parliamentary 
inquiry.
    Mr. Biggs. My inquiry is this. Is the chairman going to 
permit himself to rebut every Republican who's asking questions 
or making statements in the remainder of this hearing?
    Chairman Nadler. No, not every.
    The gentlelady from California.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I have some questions, but I do want to address the issue 
that was just raised. I do think it's important to note 
footnote 465 that basically says that the foreign government 
conveyed information to the U.S. Government that really was the 
origin of this investigation.
    And I will also say this. I don't know how many people, 
other than myself, have read the entire FISA application that 
was provided to the Congress in the last Congress, but I did. 
And they provided not only the FISA application but all of the 
underlying evidence that was provided to the court. And I 
started reading it at 9:00 in the morning, and I ended up 
canceling my entire day because it took me until 5:00 p.m. to 
read the entire application. And I would just suggest to 
members who have not read the FISA application that it would be 
advisable to do so before suggesting that there were 
improprieties.
    Now to the questions that I have.
    You know, we've talked a lot about Volume II of the report, 
and there are concerning matters there, certainly. But I am 
concerned about some of the report--much of it is redacted, as 
we know, and I look forward to seeing the redactions and the 
underlying evidence.
    But there were a substantial number of contacts between the 
Russian Government and the Trump campaign in a way that--I 
mean, I've been involved in campaigns before. I've never seen 
anything like this.
    As we configured, in the report, it talks about 170 
contacts between the Russian Government, 28 meetings between 
the Russians and the Trump campaign. And if you take a look at 
indictments and other publicly available information, I think 
you can identify--and there may be more, but--272 contacts 
between the Russians and 38 meetings. That's just weird. I 
mean, I've never seen anything like that in any campaign I've 
ever been involved in.
    And I'm just wondering--Dr. Polyakova, you are an expert on 
Russian affairs. Doesn't that indicate--I mean, that wouldn't 
happen without the Russian Government countenancing that. 
Because that's a high-profile risk, for Putin to interfere in 
the government of others. It could lead to a whole set of 
ramifications if it ended up being a losing proposition. This 
was a high-risk effort, I think. If I'm wrong, you'll tell me.
    Wouldn't that have to be a product of a strategy by the 
Russian Government?
    Dr. Polyakova. Absolutely. As I say in my written 
testimony, what comes out very clearly in the Mueller 
investigation and additional independent reporting and also 
various statements from our own intelligence community is that 
there was a strategic intent to infiltrate and gain political 
access to the Trump campaign.
    Ms. Lofgren. I want to talk about the--one of the things 
that I just can't get out of my mind is that the campaign 
chairman, Mr. Manafort--and he has an excuse. He was trying to, 
you know, cozy up to former sugar daddy in the Ukraine--but 
that he gave sensitive internal polling data not once but 
multiple times, and he had his assistants do the same, to 
operatives, Russian operatives, Mr. Kilimnik, and at the same 
time that Kilimnik and the Russian military were buying ads and 
doing a propaganda campaign to influence the electorate in 
those same States to benefit Trump.
    It strikes me that having that kind of internal polling 
data as a show of good faith is unusual.
    I don't know if, Professor Hasen, whether you have enough 
familiarity in the running of campaigns to say that that would 
be kind of an odd thing to do.
    Mr. Hasen. I'm not on the campaign side. I'm on the law 
side. So I can't----
    Ms. Lofgren. Can anybody?
    Ms. Cordero?
    I mean, we don't have an election manager here, but it 
strikes me--I mean, I've been involved in many, many, many 
campaigns. I've never seen anything like that.
    Has any one of you taken a look at the role that the 
Russian military played in supporting third-party candidates 
through their social media efforts?
    Dr. Polyakova, have you looked at that?
    Dr. Polyakova. In the United States specifically?
    Ms. Lofgren. Yes.
    Dr. Polyakova. I have not seen other evidence, mainly 
because in open source that's very difficult to do. We really 
need information from the intelligence community. And that is 
why the Mueller report is the most comprehensive research on 
that matter.
    Ms. Lofgren. I'll just say this, that there were thousands 
of tweets really aimed at millennials and African American 
voters, urging them to support the Green Party candidate and 
criticizing the candidacy of Hillary Clinton.
    Finally, I'll say that the--my colleague Sheila Jackson Lee 
talked about Chairman Gates was going do press strategy with 
the WikiLeaks release. Wasn't the WikiLeaks release coordinated 
with Russia, in your judgment, Dr. Polyakova?
    Dr. Polyakova. It is correct that Russian agents, under the 
guise of Guccifer 2.0 and DCLeaks, did coordinate the release 
of the stolen information with WikiLeaks. It also seems clear 
from the Mueller investigation that members of the campaign 
were eager to publicize that information when it came out.
    Ms. Lofgren. My time's expired, Mr. Chairman. Thank you for 
your indulgence.
    Chairman Nadler. I thank the gentlelady.
    The gentleman from Texas, Mr. Ratcliffe.
    Mr. Ratcliffe. I thank the chairman.
    In the Mueller report, Special Counsel Mueller details what 
he calls a sweeping and systematic effort to influence the 2016 
election by the Russian Government.
    Those details are largely set forth in two separate 
indictments, one identifying 12 Russian hackers associated with 
the GRU and 13 Russian individuals and 3 organizations, part of 
the Internet Research Agency.
    Some of the witnesses, including Ms. Cordero and Professor 
Hasen, provided an accurate summary of that systematic and 
sweeping effort by the Russian Government.
    Ms. Cordero, did the special counsel find that that 
sweeping and systematic effort by the Russian Government to 
influence our elections--did the special counsel find that 
began before or after Donald Trump's entry into the 2016 
Presidential field?
    Ms. Cordero. The indictments and information in the report, 
but particularly the indictments of the Russian intelligence 
officers, indicate that the Russian influence effort predated--
--
    Mr. Ratcliffe. Predated. Thank you.
    Ms. Cordero. It went back----
    Mr. Ratcliffe. My time's limited, but thank you. So the 
answer is: before Donald Trump entered the field.
    And so, Ms. Cordero, let me ask you. On October 21, 2016, 
the Obama Justice Department submitted a FISA application to 
surveil a Trump campaign associate named Carter Page. And as 
part of that application, FBI Director Comey and Deputy 
Attorney General Sally Yates signed a verified application that 
included the now-infamous, unverified, uncorroborated Steele 
dossier, which specifically states that there was a, quote, 
well-developed conspiracy between the Trump campaign and the 
Russian Government.
    Ms. Cordero, did the special counsel find that there was a 
well-developed conspiracy between the Trump campaign and the 
Russian Government?
    Ms. Cordero. So the special counsel analyzed conspiracy 
under criminal conspiracy law. And so, under criminal 
conspiracy law, the special counsel did not find that there was 
a tacit or implicit----
    Mr. Ratcliffe. Thank you.
    Ms. Cordero [continuing]. Agreement between the campaigns.
    Mr. Ratcliffe. I appreciate that. So no conspiracy.
    So, Professor Hasen, I actually agree with you when you 
talk about the goal of the Russians to sow discord into the 
American democratic republic.
    And despite the fact that Special Counsel Mueller found 
that neither Donald Trump or anyone associated with his 
campaign conspired or colluded or was successful in any way in 
meddling in the 2016 Presidential election, it's hard to argue 
that Russia wasn't successful in that ultimate goal of sowing 
the seeds of discord, because our country just endured a 2-year 
investigation to determine whether or not the President of the 
United States was part of a treasonous conspiracy with a 
foreign adversary to steal an election--an investigation that 
was started by the Obama administration, who started an 
investigation into a conspiracy that the special counsel has 
now conclusively and unequivocally established never existed.
    So, since the purpose of this hearing is to talk about the 
lessons learned from the Mueller report, let's talk about those 
lessons and the factors that contributed to Russia's success.
    One of the factors that contributed to Russia's success was 
the Obama administration opening a probe into the Trump 
campaign using foreign counterintelligence spying powers to 
investigate a conspiracy that, again, the special counsel 
conclusively determined did not exist.
    Another factor that contributed to Russia's success was the 
Obama administration's intelligence community assessment, which 
was used to tell the American people that, not only did Russia 
interfere in the election, but did so because Vladimir Putin 
was trying to get Donald Trump elected.
    Another factor was the one I just mentioned: the Obama 
administration's use of FISA warrants obtained through verified 
applications based on the unverified Steele dossier, which the 
Obama DOJ and FBI knew to be an uncorroborated Clinton campaign 
opposition research document. That might have contributed to 
Russia's success.
    And, of course, we have the Obama administration officials, 
some now under investigation for leaking information, perhaps 
classified information, falsely depicting a Trump/Russia 
collusion conspiracy that never existed.
    So I love talking about the Mueller report. I'm just 
wondering when my colleagues on the other side of the aisle are 
going to start asking questions about why Bob Mueller spent $40 
million and had 60 people working around the clock for 2 years 
asking questions about President Trump and a conspiracy that 
never existed instead of spending some of that time asking 
about President Obama and how all of this got started.
    I'm done.
    Chairman Nadler. The gentleman's time has expired. The 
witness may answer the question.
    Mr. Hasen. What was the question?
    Chairman Nadler. I don't know.
    Mr. Hasen. I'll take a pass. Thank you.
    Chairman Nadler. The gentleman from Georgia, Mr. Johnson, 
is recognized.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    And I want to thank the witnesses for appearing here today.
    And, Professor Prakash, you are the James Monroe 
Distinguished Professor of Law at the University of Georgia, 
having before that served as a clerk for the court of appeals 
of the Federal court, D.C. Circuit, and also having joined the 
ranks of those distinguished persons who have had the honor of 
serving as a United States Supreme Court law clerk. Is that 
correct?
    Mr. Prakash. For the record, Representative, I'm a 
Cavalier, not a Bulldog.
    Mr. Johnson of Georgia. Okay. Well, you are--that's--I'm 
not going to hold that against you.
    But the point I'm making is that you have a distinguished 
career. And you actually majored in political science and 
economics at the University of--at Stanford University. And you 
obtained your law degree, and you teach constitutional law and 
foreign relations law to young students now, do you not?
    Mr. Prakash. Yes.
    Mr. Johnson of Georgia. And you've read part one of the 
Mueller report, have you not?
    Mr. Prakash. I'm sad to say that I have not.
    Mr. Johnson of Georgia. You have not. So you--but if you--
you've heard a little bit about it, though, haven't you?
    Mr. Prakash. Yes, Representative.
    Mr. Johnson of Georgia. And you understand that the Mueller 
report makes the case that the Trump campaign knew about 
Russian attempts to help it win the campaign.
    Mr. Collins. Point of order. And I want his full time--I 
want Mr. Johnson to have his full time. I'm not trying to stop 
his time or his witness. But this brings up an interesting 
point that I have tried to bring up since the beginning about 
our notification of this hearing and the purpose of this 
hearing.
    Our witness has stated up front that he was here because we 
were supposed to do an obstruction hearing, part two.
    Mr. Johnson of Georgia. I----
    Mr. Collins. Now, Mr. Johnson, I appreciate your--I'm not 
trying to argue with you now. I want your time completely.
    But it should be at least understood, Mr. Chairman, that 
this, again, going back to my earlier statements today, this 
was not communicated to us, Mr. Chairman. And I think it's 
unfair to the witness to comment on a part of the report that 
he was not brought here to comment on.
    If we want to do this, fine. I'm not trying to stop his 
time. He can have as much time as he wants. But this is 
something that need to be addressed, Mr. Chairman, as we go 
forward.
    Chairman Nadler. That is not a point of order. The witness 
can----
    Mr. Collins. It was not intended to be a point of order.
    Chairman Nadler. You said it was a point of order.
    Mr. Collins. Okay. It was a colloquy with the chairman. A 
colloquy with the chairman.
    Chairman Nadler. Fine.
    The witness may answer the question to the best of his 
ability.
    Mr. Collins. Is the chairman not going to engage me on 
this?
    Chairman Nadler. No.
    Mr. Collins. The chairman is--this is not fair.
    Mr. Cohen. Not fair? You're out of order.
    Mr. Prakash. Representative, I'm not in a position to 
comment on what part one might have said. I----
    Chairman Nadler. He gentleman's time will resume.
    Mr. Johnson of Georgia. I will rephrase my question to you, 
Professor. You would admit that it would be wrong for a 
Presidential campaign to accept offers of foreign assistance.
    Mr. Prakash. Representative, I----
    Mr. Johnson of Georgia. Is that wrong, or is that right?
    Mr. Prakash. I wish to be on the record as saying I'm 
opposed to foreign assistance both for Democratic nominees and 
for Republican nominees. It is sad to say that both took----
    Mr. Johnson of Georgia. Reclaiming my time.
    Mr. Prakash [continuing]. Foreign----
    Mr. Johnson of Georgia. Reclaiming my time. You would also 
agree with me that it is wrong for a President to say that he 
would accept help for his reelection from a foreign government. 
That's wrong, isn't it?
    Mr. Prakash. I think it's wrong to say it, and I think it's 
wrong to do it, and I think both----
    Mr. Johnson of Georgia. And you would condemn it----
    Mr. Prakash [continuing]. Campaigns did it.
    Mr. Johnson of Georgia [continuing]. Would you not?
    Mr. Prakash. I just said it was wrong, so----
    Mr. Johnson of Georgia. You would not condemn it, however?
    Mr. Prakash. I'm happy to use the word. I condemn it.
    Mr. Johnson of Georgia. Okay. All right. Thank you.
    Now, going on to Professor Cordero, in your experience as a 
national security lawyer, would it be reasonable to open an 
investigation such as the Russian influence investigation when 
a foreign government reports to the authorities that a Trump 
campaign official has stated that he has information that 
Russia has dirt that it wants to share with the Trump campaign? 
Do you think that serves as an adequate basis to open an 
investigation?
    Ms. Cordero. Yes. So there are guidelines. There are 
Attorney General guidelines for domestic operations for the 
FBI, and they have to follow those guidelines. There has to be 
a predication. They have to have information. And information 
from a reliable foreign government----
    Mr. Johnson of Georgia. And that information----
    Ms. Cordero [continuing]. That predicates that would 
justify opening a counterintelligence investigation.
    Mr. Johnson of Georgia. And that information came to the 
attention of the U.S. authorities on July 26--excuse me--on May 
6, 2016. And it was not until October of 2016 that the Federal 
authorities were made aware of the Steele dossier.
    So are you aware of the fact that the investigation, the 
counterintelligence investigation, into the Trump campaign 
activities began prior to the Steele dossier being revealed to 
the Federal authorities?
    Ms. Cordero. Congressman, I have to say, I think that the--
I'm only able to go on information that's in the report and 
that's publicly available. And it is not altogether, I think, 
clear exactly when which investigations were opened. There are 
certainly----
    Mr. Johnson of Georgia. Well, I would argue with you that 
it is clear in the report, in the Mueller report, that the 
Steele dossier came to their attention after the information 
came in from the foreign government that George 
Stephanopoulos--excuse me--George----
    Ms. Cordero. Papadopoulos.
    Mr. Johnson of Georgia [continuing]. Papadopoulos was going 
around in a drunken fit, talking about Russians having 
information, dirt on Hillary Clinton.
    Ms. Cordero. Yes.
    Mr. Johnson of Georgia. And, with that, I will yield back.
    Ms. Cordero. I agree. There's not--I don't think that the 
report indicates that the Steele dossier was the basis for the 
opening of the investigation.
    And based on everything that is now apparent from the 
report about the systematic activities by the Russian 
intelligence agencies and how that information would have come 
in, there is substantial information that would've justified 
opening this counterintelligence investigation. And, in my 
judgment, it would've been a dereliction of duty for them not 
to investigate.
    Mr. Johnson of Georgia. Thank you.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    The gentleman from Florida, Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    Mr. Chairman, are you going to subpoena Robert Mueller? 
I'll yield to you to answer.
    Chairman Nadler. I'm not going to answer that at this time.
    Mr. Gaetz. Well, we're here in part two of ``Lessons from 
the Mueller Report,'' and so I'm wondering how we're going to 
learn those lessons. During part one of ``Lessons of the 
Mueller Report,'' we brought in John Dean to reexamine the 
Nixon impeachment. Perhaps during part two we'll get to the 
impeachment of Andrew Johnson.
    Maybe the folks here could teach us some lessons.
    For the witnesses, so that we don't have to individually go 
through, here is the question. And raise your hand if you would 
answer this in the affirmative.
    Do any witnesses here have personal knowledge regarding the 
truth or falsity of a single material fact in the Mueller 
report? If you have personal knowledge regarding the truth or 
falsity of a single material fact, just raise your hand, so I 
can figure out who to ask the question to.
    So the record can reflect no witnesses have raised their 
hand. No witnesses have any personal knowledge regarding a 
single fact in the report. No witnesses last week had personal 
knowledge.
    Ms. Scanlon. Will the gentleman yield?
    Chairman Nadler. Would the gentleman yield?
    Mr. Gaetz. Well, I'll certainly yield to the chairman, 
because I'm eager to----
    Chairman Nadler. I would remind the gentleman that there is 
an ongoing controversy that the White House is asserting the 
right to prohibit the testimony of any witness with regard to 
anything that happened----
    Mr. Gaetz. I'm going to reclaim my time.
    Chairman Nadler [continuing]. Since he was President.
    Mr. Gaetz. I fully understand and appreciate that, Mr. 
Chairman. There is no----
    Chairman Nadler. Would the gentleman yield to----
    Mr. Gaetz. I will not, because I want to respond to the 
chairman's assertion.
    The person over whom the White House can assert no 
privilege is Robert Mueller. And you have the power to subpoena 
Robert Mueller. You have used subpoena power extensively in 
this committee, and you won't subpoena the person who wrote the 
report.
    And so this hearing should not be entitled ``Lessons from 
the Mueller Report.'' It should be entitled ``Hot Takes from 
the Mueller Report,'' because what we're getting are people who 
have no knowledge of the facts, no information as to the 
underlying information. They're just reading it and offering 
their analysis and their hot takes.
    But I think that there is a far more critical issue that 
our committee should be addressing and that we could address. 
Right now, we're at a circumstance where upwards of 5,500 
people are arriving every day on our southern boarder. And this 
committee has the jurisdiction to reform our asylum laws, to 
secure the border, to make changes to ensure that we have a 
country that's protected and a rule of law that's maintained.
    Fortunately, actually, one of our witnesses is somewhat of 
an expert on this subject.
    Ms. Cordero, you are----
    Mr. Biggs. Mr. Chairman, the committee is not in order.
    Chairman Nadler. I'm sorry. Did someone say a point of 
order? What?
    Mr. Biggs. Mr. Chairman, I said the committee is not in 
order.
    Chairman Nadler. Oh.
    The committee will be in order.
    Mr. Gaetz. Ms. Cordero, you are somewhat of an expert on 
the activities that go on on our southern border, aren't you?
    Ms. Cordero. I do some work related to national security 
and homeland security in my capacity as a senior fellow, yes.
    Mr. Gaetz. And in 2013, for Georgetown, you wrote an essay 
entitled ``Breaking the Mexican Cartels: A Key Homeland 
Security Challenge''----
    Mr. Johnson of Georgia. Now, Mr. Chairman, at this time, 
I'm going to interrupt and say that this hearing about part one 
of the Mueller investigation, and it's not about----
    Mr. Gaetz. I wish it was about the Mueller report. I really 
wish it was, Mr. Johnson.
    Mr. Johnson of Georgia [continuing]. Down at the border.
    Chairman Nadler. The gentleman----
    Mr. Gaetz. They don't know anything about the Mueller 
report.
    Chairman Nadler. The gentleman will suspend.
    The gentleman proceed. The gentleman has the time.
    Mr. Gaetz. You wrote, ``Breaking the Mexican cartels is no 
easy feat but is a necessary one to secure our southern border, 
eliminate the presence of dangerous cartels in our cities, 
reduce Americans'' contribution to the drug trade and resulting 
violence, and play our role in restoring the Mexican citizenry 
to a free society from daily terror.''
    Is it your impression that, since you wrote this in 2013, 
that the circumstances on our southern border have gotten 
better or worse?
    Chairman Nadler. I will--excuse me. The gentleman will 
suspend.
    Since this does not reflect--this has nothing to do with 
part one or Volume I or Volume II of the Mueller report or 
anything conceivably----
    Mr. Gaetz. But, Mr. Chairman----
    Chairman Nadler [continuing]. Or anything conceivably 
within the ambit of this hearing, of the notice of this 
hearing, the witness may or may not reply at his or her 
discretion.
    Ms. Cordero. I'm happy to respond, Congressman.
    When I wrote that report, I thought that it was an issue 
that needed attention. It was not, in the beginning of the 
Obama administration, something that I think did get sufficient 
attention. There clearly is a changed circumstance. We are in 
2019 now. There is clearly a humanitarian problem on the 
southern border that needs to be addressed.
    What you will not find in that article is any mention of a 
wall as a response to that challenge nor any encouragement of 
the use of emergency authorities to solve the problem.
    Mr. Gaetz. I understand that, but you recognized the 
crisis. You recognize that it's worse. And I acknowledge that 
the wall may be something that divides us. But reforming our 
asylum laws, ensuring that we've got----
    Voice. You're done.
    Mr. Gaetz [continuing]. The supplemental appropriation in 
place to make sure----
    Voice. You're done.
    Mr. Gaetz [continuing]. People aren't dying on our border 
and reducing the terror you write about is a lot more----
    Voice. Regular order.
    Mr. Gaetz [continuing]. Important than hearing from----
    Chairman Nadler. The time of the gentleman----
    Mr. Gaetz [continuing]. People that know nothing about the 
Mueller report----
    Chairman Nadler. The time of the gentleman----
    Mr. Gaetz [continuing]. Purport to give lessons on the 
Mueller report.
    Chairman Nadler. The time of the gentleman has expired.
    Mr. Gaetz. Mr. Chairman, you guys take way more than your 
allocated time----
    Mr. Cohen. Point of order.
    Mr. Gaetz [continuing]. And then you take my time and 
impose on it and then restrict it.
    Chairman Nadler. The gentleman will suspend.
    Mr. Gaetz. This is a total farce, and it's no wonder 
witnesses don't want to come here and testify to this 
committee.
    I yield back.
    Ms. Cordero. I'd be happy to come back and talk about 
homeland security at another time.
    Chairman Nadler. And we may invite you at some other time.
    The gentleman has yielded back.
    Mr. Collins. Maybe Homeland Security will invite you.
    Chairman Nadler. The gentleman has----
    Mr. Johnson of Georgia. Point of order, Mr. Chairman.
    Chairman Nadler. The gentleman will state his point of the 
order.
    Mr. Johnson of Georgia. Is the other side permitted to 
impugn the character and badger witnesses?
    Chairman Nadler. Nobody is permitted to impugn the 
character or badger witnesses.
    The gentleman from Florida, Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    I'd like to answer Mr. Gaetz's question, how are we going 
to learn the lessons of the Mueller report? How are we going to 
learn from people with personal knowledge or material--personal 
knowledge?
    The answer to that is, we have material witnesses, people 
who actually are the subjects of the Mueller report. 
Unfortunately, we haven't been able to do that, Mr. Gaetz--and 
you know well that that's the truth--because this 
administration has tried to exercise this blanket immunity that 
doesn't exist that has prevented us from holding exactly the 
kind of hearings that you claim that you desire.
    So, yesterday, the committee saw a continuation of that 
unprecedented obstruction when Hope Hicks came in. She's 
mentioned over a hundred times in the Mueller report. Congress 
has the authority to interview her about her time in the White 
House. But, instead, there is this blanket immunity claim over 
her and every other White House employee.
    That's nothing short of stonewalling our efforts, which, 
perhaps, Mr. Gaetz, you and I can work together to convince the 
administration and the President that it is in the best 
interest of the American people to hear from people, a whole 
panel of them, from the administration who can actually respond 
to questions.
    Let me finish.
    Mr. Gaetz. Would the gentleman yield?
    Mr. Deutch. No, I will not.
    We can't get interviews. We can't get Mueller's files. We 
can't get an unredacted Mueller report. We can't hold hearings 
with material witnesses. It is obstruction, plain and simple.
    Yesterday, Ms. Hicks could not even answer whether she told 
the truth to the Mueller team, because the President's lawyers 
objected to the question.
    This committee must be the allowed to continue its work and 
to have witnesses who can answer the questions.
    I look forward, Mr. Gaetz, to working with you to implore 
the President to stop using this nonexistent blanket immunity.
    Mr. Gaetz. Will the gentleman yield----
    Mr. Deutch. I will not.
    Mr. Gaetz [continuing]. So that work can begin?
    Mr. Deutch. I will not because I have work to do.
    The Mueller report--Professor Hasen, the Mueller report 
details more than 170 contacts between the Trump campaign and 
Russians. I want to focus on the orchestration of the June 2016 
meeting in Trump Tower.
    On page 110 of Volume I, it states that, and I quote, ``on 
June 9, 2016, senior representatives of the Trump campaign met 
in Trump Tower with a Russian attorney, expecting to receive 
derogatory information about Hillary Clinton from the Russian 
Government.''
    Then it goes on to quote the email, in which it says, ``The 
crown prosecutor of Russia met with his father, Aras, this 
morning and, in their meeting, offered to provide the Trump 
campaign with some official documents and information that 
would incriminate Hillary in her dealings with Russia and would 
be very useful to your father. This is obviously very high-
level and sensitive information but is part of Russia and its 
government's support for Mr. Trump.'' That was in the Mueller 
report.
    Then we heard the President just last week say, if someone, 
a foreign government approached, he said, and I quote, ``I 
think you might want to listen. There isn't anything wrong with 
listening. If someone called from a country, Norway, 'We have 
information on your opponent,' I'd think we'd want to hear 
it.''
    The President denied that it was interference. He said, 
``It's not interference. They have information. I think I'd 
take it. If I thought there was something wrong, I'd go maybe 
to the FBI if I thought there was something wrong.''
    Last week, that prompted the following statement from the 
Chair of the FEC, saying, ``Let me make something 100 percent 
clear to the American public and anyone running for public 
office. It is illegal for any person to solicit, accept, or 
receive anything of value from a foreign national in connection 
with a U.S. election. It's not a novel concept.''
    It goes on to say that ``anyone who solicits or accepts 
foreign assistance risks being on the wrong end of a Federal 
investigation. Any political campaign that receives an offer of 
a prohibited donation from a foreign source should report that 
offer to the FBI.''
    Professor Hasen, the foreign solicitation statute seems to 
be right on the mark. Did the Mueller team go far enough in 
exploring this?
    Mr. Hasen. I believe the Mueller team did not go far enough 
in exploring this.
    In particular, one of the bases on which it decided to 
decline to prosecute any Trump campaign officials at the Trump 
Tower meeting was lack of evidence of willfulness. In order to 
be prosecuted for this kind of crime, you have to know that 
you're violating the law.
    The report says that Donald Trump, Jr., had failed to 
voluntarily speak to Mueller. And then Mueller did not subpoena 
him to appear before a grand jury to answer questions under 
oath about what he knew at the time. I think that was a 
mistake, and it could have come out differently had he done so.
    Mr. Deutch. And, Ms. Cordero, after the President's 
comments, you tweeted, ``It likely would be a campaign law 
violation to receive information from a foreign government, but 
that's not the point. The point is it's wrong, it's immoral, 
and it's contrary to U.S. national security interests. And for 
a sitting President, it violates his oath of office.''
    That's a strong reaction. Can you share why you believe 
accepting foreign help in an election violates the oath of 
office?
    Ms. Cordero. Because it's a foundational issue. It goes 
back to what the Founders say. It goes back to mention of 
foreign influence. We can go back in my statement. I cite in my 
written statement for the record, I cite to Washington's 
farewell address that warned of foreign interference.
    And so it is--so that's my view. My view is stated in the 
statement that I made there, that it is contrary to a President 
who is supposed to adhere and has an oath to the Constitution.
    And I would add that that is why the information in Volume 
II, the obstruction discussion, is so important. Because it 
matters what the allegations of obstruction are about.
    The report lays out a variety--a series of potentially 
obstructive acts that the President took to derail the special 
counsel's investigation. And the special counsel's 
investigation was about Russian foreign interference.
    So the very acts that are described are--what was he 
obstructing? He perhaps thought that he was obstructing 
potential inquiry into matters that would affect him or his 
inner circle personally, but what he actually was obstructing 
was the Federal Government's investigation into Russian 
interference.
    Mr. Deutch. Thank you very much.
    I yield back.
    Chairman Nadler. The gentleman's time has expired.
    The gentleman from Louisiana, Mr. Johnson--no?
    I'm sorry. The gentleman from California, Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman.
    Professor Prakash, I want to touch on something the ranking 
member mentioned. James Comey has admitted to leaking 
classified FBI documents to a Columbia University professor in 
order to influence an investigation. Under what circumstances 
would that be a crime?
    Chairman Nadler. Mr. McClintock, could you use your mike a 
little more?
    Mr. McClintock. The mike's on.
    Mr. Prakash. I heard the question.
    If Mr. Comey, his motive was to get back at the President, 
that would be, under the Mueller report, an improper motive, a 
corrupt motive, and he'd be guilty of obstruction of justice.
    If, on the other hand, his motive was I want to make sure 
that, you know, something bad doesn't happen to the ongoing 
investigation, it wouldn't be obstruction of justice.
    Mr. McClintock. It's alleged that Hillary Clinton willfully 
destroyed 30,000 emails under subpoena. Under what 
circumstances would that be a crime?
    Mr. Prakash. Representative, I--you know, I--to me, this--
you know, I don't know enough about that to comment. Obviously, 
some people find it very suspicious, but I don't know enough 
about it to comment.
    Mr. McClintock. Let me go on. According to the Senate 
Judiciary Committee, Mr. Comey had--quoting from the report--
Mr. Comey had already decided he would issue a statement 
exonerating Secretary Clinton. That was long before FBI agents 
finished their work. Mr. Comey even circulated an early draft 
statement to select members of senior FBI leadership.
    The outcome of an investigation should not be prejudged 
while FBI agents are still hard at work trying to gather facts. 
Could these actions constitute obstruction of justice?
    Mr. Prakash. I don't know, Representative. If, in fact, the 
investigators prejudged the merits of that investigation before 
it was complete, it would be a grievous error, and it might 
very well rise to the level of obstruction of justice. But I 
don't have any knowledge of that.
    Mr. McClintock. Let me read from Gregg Jarrett's account of 
this era.
    He says, ``Another oddity was the five so-called immunity 
agreements granted to Clinton's State Department aides and IT 
experts.
    ``Cheryl Mills, Clinton's former chief of staff, along with 
two other State Department staffers, John Bentel and Heather 
Samuelson, were afforded immunity agreements, as was Bryan 
Pagliano, Clinton's former IT aide, and Paul Combetta, an 
employee of Platte River Networks, the firm hired to manage her 
server after she left the State Department.
    ``As Fox News has reported, Combetta utilized the computer 
program BleachBit to destroy Clinton's records despite an order 
from Congress to preserve them, and Samuelson also destroyed 
Clinton's emails. Pagliano established the system that 
illegally transferred classified and Top Secret information to 
Clinton's private server. Mills disclosed classified 
information to Clinton's family foundation in the process, 
breaking Federal laws.
    Why were these five people given immunity from prosecution? 
In almost every criminal case, immunity is only granted after a 
witness delivers a proffer, an offer of proof of evidence, that 
incriminates someone else and precipitates criminal charges. 
Yet no one, Clinton included, was ever prosecuted.
    The prospect of a Comey coverup was further fueled by the 
inexplicable actions of the FBI when it reportedly destroyed 
the laptops of Samuelson and Mills after they received 
immunity. Why would the FBI erase or demolish computers with 
classified information contained therein? It appears the Bureau 
itself committed crimes by destroying evidence relevant to its 
own criminal investigation.
    But there's more. According to a senior FBI source, quote, 
``Mills was allowed to sit in on the interview of Clinton as 
her lawyer. That's absurd. Someone who is supposedly 
cooperating against the target of an investigation being 
permitted to sit by the target as counsel violates any 
semblance of ethical responsibility,'' end quote.
    What are your thoughts, hearing those observations?
    Mr. Prakash. Representative, I'm just not prepared to 
discuss that investigation. I will say that under the----
    Mr. McClintock. Does it trouble you as an attorney?
    Mr. Prakash. Well, I----
    Mr. McClintock. As someone who believes in the rule of law, 
does it trouble you?
    Mr. Prakash. I find many aspects of that investigation 
troubling. I'll leave it at that.
    I will add that the special counsel's definition of 
``obstruction'' makes it possible that cooperating with the 
prosecutor for the wrong reasons is itself obstruction, because 
it's influencing an investigation and doing so for a corrupt 
purpose.
    So, for instance, if you decide to cooperate with the 
prosecutor solely to save your own skin, that is a corrupt 
purpose because it's personal----
    Mr. McClintock. You know, let me go under----
    Mr. Prakash [continuing]. And you've committed a crime, 
which I think suggests that the special counsel's definition is 
too broad.
    Mr. McClintock. Let me just touch also on the Executive's 
use of his constitutional authority.
    In the early 1960s, the FBI, under J. Edgar Hoover, 
conducted extensive wiretaps and surveillance of Dr. Martin 
Luther King. Now, if President Kennedy had called Hoover and 
said, ``This is nonsense, knock it off,'' would that have 
constituted an obstruction of justice?
    Mr. Prakash. No, sir. I wrote before the election that the 
next President could fire Mr. Comey, and I wrote that with 
Senator Clinton in mind.
    Mr. McClintock. Well, when John Deutch served as CIA 
Director under Bill Clinton, he was prosecuted for putting 
classified materials on his home computer. While he was 
negotiating a plea deal with the prosecutors, President Clinton 
pardoned him, a clear constitutional prerogative of the office. 
Was that an obstruction of justice?
    Mr. Prakash. I don't believe so, sir.
    Mr. McClintock. All right. Thank you very much.
    Chairman Nadler. The gentleman's time has expired.
    The gentlelady from California, Ms. Bass.
    Ms. Bass. Thank you. Thank you very much, Mr. Chair.
    As my colleagues have noted before, the Mueller report 
documents more than 170 contacts between individuals associated 
with the Trump campaign and Russian nationals or people acting 
on their behalf.
    You can see from this slide, in the word cloud, those are 
many of the--describe the Russian nationals who had been in 
contact with the campaign.
    One of the most direct interactions between Russian 
officials and the campaign occurred at a meeting on June 9th in 
Trump Tower.
    On June 3rd, publicist Robert Goldstone emailed Donald 
Trump, Jr., telling him that a high-ranking Russian prosecutor, 
quote, ``offered to provide the Trump campaign with some 
official documents and information that would incriminate 
Hillary and her dealings with Russia and would be very useful 
to your father.''
    Goldstone added, ``This is obviously very high level and 
sensitive information, but it's part of Russia and its 
government's support for Mr. Trump,'' close quote.
    Within minutes, Donald Trump, Jr., responded, quote, ``If 
it's what you say it is, I love it, especially later in the 
summer.''
    Trump, Jr., proceeded to set up a meeting between the 
Russian prosecutor, himself, campaign manager Paul Manafort, 
campaign senior advisor Jared Kushner, and several of the 
prosecutor's associates.
    This is a question for Ms. Cordero.
    From a counterintelligence perspective, how significant is 
it for a foreign government to reach out to an American 
Presidential campaign and offer to help work against that 
candidate's opponent? Do you think this happens often with 
Presidential campaigns?
    And from a counterintelligence perspective, are political 
candidates or current elected officials the usual targets of 
such intelligence activities by foreign powers?
    Ms. Cordero. No, I don't have any reason to think that this 
is a normal occurrence with respect to a campaign.
    What the Mueller report shows is that the Russians were 
crawling all over this campaign. They were everywhere.
    And what the information that you just quoted demonstrates 
is that the members affiliated with the Trump campaign were 
knowledgeable and willing--and there's lots of other 
documentation in the report--knowledgeable and willing about 
Russian efforts to support their campaign. That email is but 
one example.
    Ms. Bass. So is this a typical tactic, do you know, of the 
Russian Government in its efforts to acquire human intelligence 
or compromising information? Do you know of other examples 
around the world where they might have used the same tactics?
    Ms. Cordero. Well, we certainly know and it's been well-
documented--and I'm sure Dr. Polyakova has thoughts on this as 
well--that the Russian influence efforts to effect democratic 
processes are in Europe, in Eastern Europe, throughout Western 
Europe. Their goal is to try to influence these democracies in 
a way that suits their interests.
    And that's what I tried to get at in my written statement 
as well, is that when a foreign entity, in this case the 
Russian intelligence efforts, are trying to influence other 
countries, what they're trying to do is influence them in a way 
that is in their interests, not ours.
    Ms. Bass. So how is it in their interests that Trump be 
elected as President? And what has happened since he's been in 
office that would've been in their interests?
    Ms. Cordero. Well, there's one piece of the report that 
describes that an individual who was affiliated with a 
nongovernmental organization actually was working on a sort of 
new plan for how U.S.-Russia relations would take place. So 
there is information in the report that indicates that there 
were various ways that the Russian Government was going at 
this.
    In addition, the report also says that the Russian 
influence efforts started before candidate Trump entered the 
race----
    Ms. Bass. Let me be----
    Ms. Cordero [continuing]. But that the effort then changed 
over time to actively support the Trump campaign.
    Ms. Bass. So, before I run out of time, would you like to 
continue to respond?
    Dr. Polyakova. A few comments.
    One, it is, I would say, part of normal Russian 
intelligence operations to try to infiltrate and penetrate 
political parties and campaigns. We have seen this happen for 
decades now across Eastern Europe and Western Europe. So, in 
many ways, the efforts in the United States are part of a much 
broader pattern that has continued to this day and continues 
today.
    Regarding the Russian intent, the Russian intent is never 
benign. It is not a benign offer of help when an adversarial 
regime approaches a political campaign with potential 
information related to anything. That should be very clear in 
everyone's minds.
    And one thing I will note regarding why it would be in the 
Russian interests, there's one specific incident also noted in 
the report and elsewhere during the RNC Convention in which we 
know there was a line changed regarding U.S. support for 
Ukraine. Of course, it is in the Russian interest to see less 
support for Ukraine, and as one specific example of how it 
would've been in the Russian interest to support the Republican 
candidate, Donald Trump.
    Ms. Bass. I yield back my time.
    Chairman Nadler. I thank the gentlelady.
    The gentleman from Pennsylvania, Mr. Reschenthaler.
    He's not here.
    The gentleman from Virginia, Mr. Cline, then.
    Mr. Cline. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here today.
    And I would note, although my colleague Mr. Jordan has 
left, that, you know, the University of Virginia does currently 
hold a national basketball championship. So that's something to 
be said for the ACC right there.
    But, you know, this hearing today is about--supposedly 
about bipartisan perspectives. And I want to appreciate--I want 
to thank the witnesses for many of their perspectives on 
Russian interference.
    Reading from the Mueller report, ``Although the 
investigation established that the Russian Government perceived 
it would benefit from a Trump Presidency and worked to secure 
that outcome and that the campaign expected it would benefit 
electorally from information stolen or released through Russian 
efforts, the investigation did not establish that members of 
the Trump campaign conspired or coordinated with the Russian 
Government in its election interference activities.''
    What I'm hearing from my colleagues is a desperate effort 
to dig through the couch cushions, essentially, trying to find 
anything they might be able to use to prolong this narrative 
and establish that these are--they can't help but push hearings 
on impeachment under the guise of oversight.
    So I am disappointed, Mr. Chairman, in the way that the 
witnesses and the minority have essentially been whipsawed as 
to whether this hearing is on Volume I or Volume II. I would've 
liked to have heard some more about Russian interference and 
what can be done to prevent it, because I think that's a real 
issue.
    Mr. Cline. Ms. Cordero, you spoke of foreign interference 
undermining our system. Is Russia still engaged in election 
interference?
    Ms. Cordero. According to the most recent information that 
I've seen from the U.S. intelligence community, which is in the 
best position to assess it, their activities to interfere in 
our elections going forward--there was evidence in the 2018 
election, and I haven't seen anything from U.S. intelligence 
community leaders or the FBI Director that says that it's 
stopped.
    Mr. Cline. In fact, articles I've seen indicate that the EU 
elections 2 weeks ago showed evidence of Russian interference.
    And any of the witnesses can respond to that, if they're 
aware of it.
    Dr. Polyakova. I would be happy to respond to that, 
Congressman.
    As I say in my written testimony, the interference in the 
United States was not the last instance. We have seen 
significant interference in the Presidential campaign of 
Emmanuel Macron in 2017. We've seen a Russian hack of the 
German parliament, the Bundestag, also in that year and later.
    So these efforts continue. And just in the recent European 
Parliamentary election, which you referred to, that happened 
this past May, the European institutions issued a statement 
saying that there was significant Russian disinformation that 
targeted those European elections.
    And I would just highlight the fact that our European 
allies are far ahead because of political leadership within the 
European Commission in getting ahead of this threat.
    Mr. Cline. And I would ask either Ms. Cordero or Dr. 
Polyakova: One of the great attributes, benefits of our system 
and that enables us to be more resistant to foreign 
interference is the fact that we are a decentralized system, 
that those decisions are made at the State, at the local, at 
the county level, when it comes to machinery and the lack of 
standardization. The inability of a foreign entity to hack 
into, on a broad, broad scale, U.S. systems, is an attribute, 
correct?
    Ms. Cordero. I would say--certainly our system is 
decentralized, and so perhaps there is an argument that that 
decentralization has a benefit.
    I am concerned, though--there is a Federal responsibility, 
particularly out of the Department of Homeland Security, to 
help State and local agencies make sure that they have the best 
information, the best techniques, the best advice to be able to 
secure our elections. And I am concerned that the 
administration, particularly with its attention to DHS, is not 
prioritizing that assistance that they can provide to State and 
locals.
    Mr. Cline. And I would agree that some help is appropriate. 
Removal of that State and local authority to a Federal level is 
probably endangering that system or making it more susceptible 
to foreign interference, would you not agree? If we were to 
remove that State and local responsibility.
    Ms. Cordero. Congressman, I'll have to think about that. 
I'm not aware of proposals that actually would change that 
elections be administered not at the State and local level 
anymore. But if there is such a proposal, I'd be happy to look 
at----
    Mr. Cline. Well, I would argue that many of the provisions 
in H.R. 1 actually did go in the way of federalizing and 
removing authority from State and local elections. And so this 
Congress, actually this majority Democrat leadership, is in the 
process of trying to remove much of that authority.
    And I see I've run out of time. I yield back.
    Chairman Nadler. The gentleman yields back.
    The gentleman from New York, Mr. Jeffries.
    Mr. Jeffries. Thank you, Mr. Chairman.
    I thank the witnesses.
    Ms. Cordero, it is never acceptable for a U.S. Presidential 
campaign to welcome assistance from a hostile foreign power. Is 
that correct?
    Ms. Cordero. In my judgment, yes.
    Mr. Jeffries. But that is exactly what the Trump campaign 
did in 2016, true?
    Ms. Cordero. Yes.
    Mr. Jeffries. And you believe that accepting and welcoming 
that assistance from Russia, a hostile foreign power, is 
disqualifying. Is that right?
    Ms. Cordero. Yes.
    Mr. Jeffries. And what exactly did you mean by 
``disqualifying''?
    Ms. Cordero. What I mean is that I don't think that it 
should be--and this isn't a judgment of the American public--
but that there should be a legitimate candidacy of a candidate 
that is willingly willing to receive--openly willing to receive 
information from a hostile intelligence service. So I do 
believe that that is a fundamental violation of the oath, and I 
don't think--and this is a political judgment--that that should 
be a viable candidacy.
    Mr. Jeffries. And you make that political judgment as a 
conservative libertarian. Is that right?
    Ms. Cordero. As a conservative lawyer, as a national 
security lawyer.
    Mr. Jeffries. Thank you.
    Dr. Polyakova, you're an expert in Russian foreign policy. 
Is that right?
    Dr. Polyakova. Yes.
    Mr. Jeffries. And, in your testimony, I think you detailed 
that Russia is a hostile foreign power continuing to engage in 
political warfare against the West. Is that right?
    Dr. Polyakova. Yes.
    Mr. Jeffries. And that included the Russian operation that 
targeted the U.S. Presidential election in 2016?
    Dr. Polyakova. That's correct.
    Mr. Jeffries. And it's your opinion, I believe, that 
Manafort's past work in the Ukraine, quote, ``absolutely should 
cast a shadow on Trump's 2016 campaign.'' Is that right?
    Dr. Polyakova. I'm sorry. Can you repeat the question?
    Mr. Jeffries. That Manafort's past work in the Ukraine 
casts a shadow on his work in the 2016 campaign. Is that right?
    Dr. Polyakova. I believe so, yes.
    Mr. Jeffries. And that's in part because of his association 
with Russian oligarchs. Is that correct?
    Dr. Polyakova. And his previous undeclared work as an agent 
of a foreign government, yes.
    Mr. Jeffries. Okay.
    And Manafort's Russian and Ukrainian contacts all had ties 
to Putin. Is that right?
    Dr. Polyakova. I wouldn't go as far as to say all of them. 
Certainly some are suspected to have ties to the Kremlin, 
although we don't know specifically if those ties were directly 
to the Russian President.
    Mr. Jeffries. Okay.
    And throughout Manafort's time leading the Trump campaign, 
he stayed in touch with some of these contacts through an 
individual named Konstantin Kilimnik. Is that right?
    Dr. Polyakova. That is my understanding of the report, yes.
    Mr. Jeffries. And Kilimnik is a longtime associate of 
Manafort. Is that right?
    Dr. Polyakova. That is what is stated in the report, yes.
    Mr. Jeffries. Right. And I think the Mueller report 
concluded that Kilimnik had ties to Russian intelligence. Is 
that correct?
    Dr. Polyakova. According to the report, yes.
    Mr. Jeffries. Now, I believe on two occasions Manafort met 
with Kilimnik during the campaign. Is that right?
    Dr. Polyakova. Off the top of my head, I can't recall if it 
was just two or more, but certainly there were several 
meetings, yes.
    Mr. Jeffries. One of those meetings took place in New York 
City in August of 2016 while Manafort was serving as the 
campaign manager. Is that right?
    Dr. Polyakova. I believe you are correct, yes.
    Mr. Jeffries. And I believe, according to the report, 
Volume I, page 140: At the August 2016, meeting, Manafort 
briefed Kilimnik on campaign messaging and shared internal 
polling data related to the battleground States of Michigan, 
Wisconsin, and Pennsylvania. Is that right?
    Dr. Polyakova. Yes.
    Mr. Jeffries. And is it fair to say that campaign polling 
data is a thing of value?
    Dr. Polyakova. I will say that I am not an expert on that 
particular issue. It's my opinion that it seems to be of value, 
yes.
    Mr. Jeffries. Is it your understanding that during the fall 
of 2016, after that meeting, Russian operatives then engaged in 
malignant social media activity and influence-peddling in 
Michigan, Wisconsin, and Pennsylvania?
    Dr. Polyakova. They did.
    Mr. Jeffries. The Mueller report concludes, I believe, that 
the Trump campaign welcomed Russia's interference and attack on 
our democracy, right?
    Dr. Polyakova. Correct.
    Mr. Jeffries. And Donald Trump won Michigan, Wisconsin, and 
Pennsylvania on his way to the Presidency. Is that correct?
    Dr. Polyakova. Yes.
    Mr. Jeffries. It's my understanding that the last 
Republican to win all three States was Ronald Reagan in 1984. 
Is that true?
    Dr. Polyakova. I will take your word for it.
    Mr. Jeffries. It seems to me that there's a cloud of 
illegitimacy that continues to hang over 1600 Pennsylvania 
Avenue and that patriotic Americans have a responsibility to 
try to figure out what the heck happened in terms of the 
malignant tumor that seemed to have been embedded in that 2016 
campaign, what did the President know----
    Mr. Collins. Regular order.
    Mr. Jeffries [continuing]. When did he know it----
    Mr. Collins. Regular order.
    Mr. Jeffries [continuing]. And how do we prevent----
    Mr. Collins. Regular order.
    Mr. Jeffries [continuing]. This type of malignant activity 
from happening again.
    Mr. Collins. The time has expired. Regular order.
    Mr. Jeffries. I yield back.
    Dr. Polyakova. Should I respond?
    Chairman Nadler. The witness may respond.
    Dr. Polyakova. Thank you.
    I will only say that the greatest contribution of the 
Mueller report and the indictments from the previous year has 
been to expose the full, broad-spectrum nature of Russian 
intelligence operations and information operations, their 
broader toolkit of political warfare against the United States 
and other allied democracies.
    And I do believe that it should be up to this legislative 
body to continue to seek more information related to that kind 
of interference in our democracy, which is absolutely corroding 
to the future stability of our democratic institutions.
    Mr. Jeffries. Thank you.
    Chairman Nadler. The gentleman's time has expired.
    The gentleman from North Dakota, Mr. Armstrong.
    Mr. Armstrong. Thank you, Chairman.
    Professor Prakash, just when we're discussing--and I 
appreciate you coming. And we've asked you to be here, so I'm 
going to ask questions of you of what you are here to testify 
for, regardless of what was going on.
    But I think I really would like to get into the premise of 
exoneration in Volume II in the Mueller report and why that's 
problematic for, not just obstruction, any kind of criminal 
crime, particularly with a prosecutor. I mean, can you 
illuminate a little bit on that?
    Mr. Prakash. Representative, are you talking about Volume I 
or Volume II?
    Mr. Armstrong. Volume II, where they basically say--a 
prosecutor saying, we cannot exonerate somebody.
    Mr. Prakash. Well, I think it's unusual for prosecutors to 
say anything. They either indict or they don't.
    And I think the Mueller report, I think, assumes or reads 
OLC opinions as if they say that not only can you not indict or 
prosecute a President, you can't conclude that the President 
committed a crime. And, of course, no OLC opinion says that. 
And so there was really no bar on Mr. Mueller coming to a legal 
conclusion. And I believe he was told this by the Attorney 
General.
    Nonetheless, Mr. Mueller decided not to reach a legal 
conclusion about whether or not the President committed 
obstruction of justice. And that can, you know, either reflect 
two things. One, it perhaps reflects his unwillingness to say 
that, to cast a cloud over the President. It could also reflect 
his uncertainty about whether the President actually obstructed 
justice.
    Mr. Armstrong. And so, when we go into--and when we 
continue--and are you familiar with the clear statement rule?
    Mr. Prakash. Yes, I am.
    Mr. Armstrong. And can you, I mean, kind of give us some 
background on how that analysis applies to the report?
    Mr. Prakash. Well, the clear statement rule--there's many 
clear statement rules that the courts apply, but one of them is 
that statues that are written in broad terms, sometimes the 
courts conclude that we're not going to read them to apply to 
the President because doing so raises separation-of-powers 
concerns.
    And so the court in a case called Public Citizen v. 
Department of Justice decided not to read FACA to apply to the 
ABA out of the concerns of the imposition it might cause to the 
Presidential power to appoint nominees.
    And then in another case involving not FACA but the APA, 
Franklin v. Massachusetts, the court also said we're not going 
to read the APA to apply to the President, even though, by its 
terms, it could be so read. And, again, the concern was 
separation of powers.
    I think the interest is more palpable here, the concern is 
more palpable here, because if you read the obstruction statute 
as applying to the supervisory authority of the President, 
you're basically making every Presidential intervention into a 
potential obstruction of justice, because one can always say 
that the President's intervention was corrupt, because you 
don't really know why the President's intervening.
    Mr. Armstrong. And separation of powers bring up--
interesting, something you said earlier when talking about 
executive privilege and immunity. And I think you and I could 
have a long--in a different scenario, have an interesting 
conversation about that and where it applies and why it doesn't 
apply.
    But it brings up a better point. And we've done this 
several times today, whether it's Volume I, Volume II, as we're 
speaking up here. I mean, Volume II, we found that there was 
no--or Volume I found there was no conspiracy, no coordination. 
The reason collusion is different is ``collusion'' is not a 
legal term. I mean, ``collusion'' is a layperson's term. But I 
think it need to be abundantly clear, there was no 
coordination, no conspiracy. And we talk about privilege and 
immunity, which are two different things, when the President is 
exercising his authority versus--regarding separation of 
powers.
    And last but not least--and I think it's important--when we 
talk about willfulness, I mean, ignorance of the law is not a 
defense. It's not a defense to the President, it's not a 
defense to the President's advisor, it's not a defense to 
anybody. Willfulness to engage in criminal conduct is all that 
is needed to have a willfulness conviction. I mean, if not, I 
have about 300 past criminal clients that should probably sue 
me for malpractice. So when we're doing those things and 
working through that, I think it's important.
    And, with that, I'd yield to my friend from Florida.
    Mr. Gaetz. I thank the gentleman for yielding.
    Ms. Cordero, you've been critical of James Clapper in the 
past, haven't you?
    Ms. Cordero. I don't think so. Is there something specific 
you're referring to?
    Mr. Gaetz. Yeah. I'm looking at the essay I referenced 
earlier, where you wrote: In January 2012, the Director of 
National Intelligence, James Clapper, devoted only three short 
paragraphs to Mexico in his annual unclassified Worldwide 
Threat Assessment. His understated assessment, however, appears 
to be at odds with other high-ranking U.S. Government 
statements and actions, which indicate far more grave 
circumstances.
    So it seems as though there's at least one case where you 
are critical of Mr. Clapper's assessment of intelligence. Is 
that accurate?
    Ms. Cordero. In that 2013, I think it was, Law Review 
article, yes, I pointed out that----
    Mr. Gaetz. Thank you so much.
    I yield back.
    Ms. Cordero [continuing]. They had only used a short amount 
of the worldwide threat statement to address to border issues.
    Mr. Gaetz. It doesn't appear he's gotten over some of his 
misassessments.
    Chairman Nadler. The gentleman yields back.
    The gentleman from Rhode Island, Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    And thank you for holding this hearing. I was saddened to 
hear my Republican colleagues try to suggest what we're doing 
today isn't important. I consider no more a sacred 
responsibility that we have as Members of Congress than to 
preserve our democracy and ensure that no foreign adversary of 
the United States interferes with American elections.
    When I think of the brave men and women who have served our 
country and given their lives in defense of our democracy, it 
seems to me that we owe it to them to do our part by conducting 
serious oversight and holding those accountable who engaged in 
this behavior and quickly pass strong legislation to prevent 
this from ever happening again. Nothing could be more urgent 
and more important.
    Now, members of the President's own administration have 
been very clear in stating that Russia attacked our elections 
in 2016 and will likely try to do it again. And, in fact, the 
conclusion of the Mueller report, after a very detailed 
investigation, is that the Russian Government interfered in the 
2016 Presidential election in sweeping and systematic fashion. 
And that's a quote.
    But President Trump has not only said he would be open to 
receiving foreign help in the next election, but he's also 
repeatedly disparaged the men and women in the intelligence 
community and the law enforcement community who investigated 
Russia's actions and who are trying to help prevent from this 
happening again. And the examples of that are--there are so 
many.
    Dr. Polyakova--I hope I am pronouncing that--you have 
explained that one of the main purposes behind Russia's 
influence operations is to sow distrust in institutions and try 
to blur the lines between fact and fiction.
    When the President accuses American law enforcement and 
intelligence officials of spying and even treason without any 
basis to suggest they've done anything wrong, does that help 
advance Russia's aim? And if so, how?
    Dr. Polyakova. It absolutely helps Russian interests to 
hear a U.S. President seemingly not take seriously or not 
believe the findings of his own administration's intelligence 
agencies, yes. That suits Russia's aims because it suggests 
that the U.S. President does not believe or take seriously the 
findings of the intelligence community which clearly implicate 
the Russian Government and Mr. Putin himself in an attack on 
the United States.
    Mr. Cicilline. Thank you.
    And, Professor Cordero, you wrote recently that Attorney 
General Barr's allegations about spying on the Trump campaign 
and his announcement of an investigation into how the FBI's 
investigation got started has put agents who were following 
existing rules in an untenable position if the need arises to 
conduct similar investigations in the next election.
    You wrote that the current environment may create--and I 
quote you--a chilling effect on agents, who may be reluctant to 
open investigations on certain individuals based on the 
rhetoric coming from the President and the Attorney General or 
otherwise to aggressively investigate foreign influence on 
political campaigns or electoral processes.
    Can you explain why there's a chilling effect and what the 
danger of that is?
    Ms. Cordero. Sure. So, as a former Justice Department 
national security lawyer, that's the perspective that I bring 
to this issue. And so what I'm concerned about is, because the 
Attorney General has now publicly and openly and repeatedly 
said that he questions the origin of the investigation, that he 
is then calling into question how agents are authorized and 
feel empowered to conduct their counterintelligence 
responsibilities.
    So what I hope his review does, U.S. Attorney Durham's 
review does, is--I actually think it would be beneficial for 
them to look at the policies and procedures. And if the 
Attorney General doesn't agree with the approval levels to open 
these types of investigations or the different processes that 
are in place, then it is within his prerogative to change them. 
What's unfair to the investigators and the intelligence 
analysts doing this work is to have rules that exist and then 
disparage them from following them.
    Mr. Cicilline. Thank you.
    And since the origins of the Trump/Russia investigation 
have been discussed by some of my colleagues, I just want to 
point people to Volume I, page 89. This will answer their 
question.
    On May 6, 2016, campaign advisor George Papadopoulos told a 
foreign diplomat that the Trump campaign had received 
indications from the Russian Government that it could assist 
the campaign through anonymous release of information that 
would be damaging to Hillary Clinton.
    Footnote 465 at the bottom of the page continues: The 
foreign government--that is, government for whom that diplomat 
worked--conveyed this information to the U.S. Government on 
July 26, 2016, a few days after WikiLeaks' release of Clinton-
related emails. The FBI opened its investigation of potential 
coordination between Russia and the Trump campaign a few days 
later based on this information.
    No mystery about how it started. You can wish it was a 
different thing. It's right in the Mueller report. Read it.
    My final question, Ms. Cordero, is, you know, there's a lot 
of evidence about 170 contacts between the Trump campaign and 
the Russians, the sharing of polling data, the meeting at the 
Trump Tower where dirt was to be conveyed, releases of 
WikiLeaks, the President welcoming it and inviting a hack into 
Hillary Clinton's personal email account.
    And while you mentioned that there was not enough evidence, 
according to the special counsel, for a criminal conspiracy, 
was there evidence of, in fact, coordination or conspiracy in 
some other way? What did you mean by the word ``criminal 
conspiracy''?
    Ms. Cordero. Well, I think that the finding of Volume I of 
the special counsel's report that there was not evidence of a 
criminal conspiracy, it really shows the limits of applying 
criminal law to what is a national security or a 
counterintelligence investigation and problem.
    And so they needed to--they were tasked with conducting a 
criminal investigation, so they applied criminal law. But that 
is different and should not be mutually exclusive from 
conducting what is a valid counterintelligence investigation, 
the goal of which might be to eventually have a prosecution or 
maybe not, but the goal of which is to uncover the underlying 
national security threat.
    Mr. Cicilline. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Nadler. The gentleman has yielded back.
    The gentleman from Arizona, Mr. Biggs.
    Mr. Biggs. Thank you, Mr. Chairman. I yield some time to 
the gentleman from Florida, Mr. Gaetz.
    Mr. Gaetz. I thank the gentleman for yielding.
    Mr. Chairman, can we get the word cloud with Mr. Kilimnik's 
name prominently displayed back up?
    Chairman Nadler. I don't know. Can we?
    Mr. Cicilline. While we're doing that, will the gentleman 
yield?
    Mr. Biggs. Excuse me. Reclaiming my time. Point of order. 
I'm looking at the clock. The clock is not--thank you.
    And now I'll yield back to Mr. Gaetz.
    Chairman Nadler. Mr. Gaetz, will you yield while they're 
looking for the cloud?
    Mr. Gaetz. I'm sorry, Mr. Cicilline. You just controlled 
the time and could----
    Mr. Cicilline. I know, but you just got--I didn't realize 
you were here.
    Mr. Gaetz. Sorry. I've got work to do here on Mr. Biggs' 
time.
    So this is this word cloud that the majority has cited, 
with the name prominently in the middle, Konstantin Kilimnik.
    And I seek unanimous consent, Mr. Chairman, to enter into 
the record a piece in The Hill by John Solomon entitled ``Key 
Figure That the Mueller Report Identifies Was a State 
Department Intel Source.''
    Chairman Nadler. Without objection.
    [The information follows:]
      

                   MR. GAETZ FOR THE OFFICIAL RECORD

=======================================================================

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Gaetz. And in this reporting by John Solomon, there is 
demonstrable evidence that Kilimnik was actually meeting with 
U.S. State Department officials in Kiev to give us intel on the 
Russians.
    This is the first major factual error of the Mueller 
report. Because if you can't delineate correctly between the 
people collecting intelligence for Russia and people collecting 
intelligence for the United States, it would seem to be a 
departure from the necessary factual basis to proceed.
    So I'm hoping we can figure out who Mr. Kilimnik was really 
working for. But if he was working for us, it would seem to be 
that Mr. Mueller was severely wrong about this.
    And I yield back to the gentleman from Arizona.
    Mr. Biggs. Thank you.
    And, Mr. Chairman, I ask for unanimous consent that an 
article by David Webb, published June 18th, 2019, be admitted 
to the record.
    Chairman Nadler. Without objection.
    [The information follows:]
      

                   MR. BIGGS FOR THE OFFICIAL RECORD

=======================================================================

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Biggs. Thank you, sir.
    I am intrigued, quite frankly, at the title of this 
hearing. I represented NGOs at the United Nations and other 
multilateral institutions. I served in a State legislative body 
for 14 years and was the Senate president in Arizona for 4 
years and the majority leader for 1. And I've sat on this 
committee now for--we're at the 2\1/2\-year mark, I suppose. 
And I just--I find it intriguing, what's happened today.
    I've not seen hearings conducted in this fashion before in 
all that, whether it be at the international level, State 
level, and, actually, the other committees I sit on and 
subcommittees. In fact, I was a subcommittee chairman for the 
last 2 years. This has been intriguing to me, to watch, in my 
opinion, the devolution of the process in some ways.
    But I will say this. One of the lessons I've learned is 
that we all see things that we want to see and we all miss 
things that we want to miss when we look at indications. But 
the one thing that rang out to me is that none of these 
witnesses has any--they're not witnesses to any material fact. 
They're providing impressions and ideas about what they read in 
the Mueller report. And that's okay. That's fine.
    But I think Ms. Cordero--and I wrote down a quote from 
her--said that no one should be a beneficiary of foreign 
operations--excuse me--no political campaign should be a 
beneficiary of foreign operatives. Professor Hasen said that 
opposition research from foreign operatives would be illegal.
    And one of the things that I always thought was interesting 
about that is that, in 2016, the Clinton campaign and DNC used 
Perkins Coie, a politically connected, influential law firm, 
essentially as a pass-through to pay Fusion GPS. And Fusion GPS 
cofounder was Glenn Simpson. He hired Christopher Steele.
    Steele's a British citizen, a foreigner, a foreign 
operative in some ways. Steele was working at that time as an 
FBI informant for the Obama Justice Department and representing 
Russian oligarch Oleg Deripaska. That's what was going on 
there.
    Hillary Clinton's campaign manager, Robby Mook, boasted 
about accepting dirt on Donald Trump furnished by Mr. Steele, 
probably sourced by criminally linked associates. That would be 
illegal. That would be wrong.
    That is something that you can gather from the Mueller 
report, but we're not discussing that. But I think we should. I 
think we should.
    And I also think that we ought to give more than an hour 
and 20 minutes to review our witnesses' testimony instead of 
popping it up to us at the last minute with a change of topic.
    With that, I'm out of time, and I yield back.
    Chairman Nadler. The gentleman yields back.
    The gentleman from California, Mr. Lieu.
    Mr. Lieu. That's fine.
    Chairman Nadler. Did the witness----
    Mr. Hasen. I wanted to respond to that, if I could.
    Chairman Nadler. Please do.
    Mr. Biggs. Point of order. There was no question before any 
of these witnesses.
    Mr. Hasen. I wanted to respond to that question.
    Chairman Nadler. I have always permitted witnesses to 
answer the last question and----
    Mr. Collins. But there was no question.
    Chairman Nadler [continuing]. To make comment on relevant--
--
    Mr. Collins. No, no, no, no, no.
    Chairman Nadler. The witness will--the witness may proceed.
    Mr. Collins. Nope.
    Mr. Biggs. Parliamentary inquiry then. Under what rule, Mr. 
Chairman, are we operating then?
    Mr. Lieu. I'll solve this. I'll talk. I'll ask him. Just 
give me the time.
    Chairman Nadler. The witness may proceed.
    Mr. Lieu. Okay.
    Mr. Hasen. I just wanted to respond to a characterization 
that I said that opposition research from a foreign source is 
illegal. That's not what I said. I said the contribution of 
this would be illegal. Paying market rates is not illegal.
    And I'd point you to footnote 17 of my written report, 
which quotes from the Republican House Permanent Select 
Committee on Intelligence, which wrote: ``Under current Federal 
law, foreigners are prohibited from making contributions or 
donations in connection with any campaign in the United States. 
However, it is not illegal to contract with a foreign person or 
foreign entity for services, including conducting opposition 
research on a campaign, so long as this service was paid at the 
market rate.''
    And this was made in the context of the Steele dossier.
    Chairman Nadler. I thank the witness for serving the 
committee by clarifying that point.
    The gentleman from California.
    Mr. Lieu. Thank you, Mr. Chair.
    Professor Hasen, you had earlier stated that you believe 
Special Counsel Mueller did not go far enough in exploring 
possible violations of the Federal election laws. I agree with 
you. As you know, under the Federal Election Campaign Act, it's 
illegal for a person to solicit, accept, or receive a 
contribution or donation. And then it defines that as money or 
other thing of value. And the Mueller report defines opposition 
research as a thing of value.
    So let's talk about the infamous Trump Tower meeting. On 
June 3rd, 2016, an email was sent to Donald Trump, Jr., that 
basically said documents would incriminate Hillary and her 
dealings with Russia. And it goes on to say that ``this is 
obviously very high-level and sensitive information but is part 
of Russia and its government's support for Mr. Trump.''
    A few minutes later, Donald Trump, Jr., replied, ``If it's 
what you say, I love it, especially later in the summer.''
    Professor Hasen, that could be read as soliciting a thing 
of value from foreign power, correct?
    Mr. Hasen. Yes. And when that information came to light 
well before the Mueller report, I said that the next step needs 
to be an investigation. Donald Trump, Jr., and others at the 
meeting need to be under oath to figure out what exactly they 
knew about the state of the law, what they thought they were 
getting. And that could potentially be a criminal campaign 
finance violation.
    Mr. Lieu. And, in fact, you believe it was not a good idea 
for the Mueller team to not have had Donald Trump, Jr., testify 
before the grand jury, correct?
    Mr. Hasen. Exactly.
    Mr. Lieu. All right. You believe it would be appropriate, 
then, for Congress to put Donald Trump, Jr., under oath and ask 
him questions about that meeting, correct?
    Mr. Hasen. Absolutely.
    Mr. Lieu. Okay.
    We now have a recent TV interview that the President gave 
to George Stephanopoulus--and you see the slide--where George 
Stephanopoulus asked the President about opposition research, 
and the President says: You want that kind of interference in 
our elections. If they have information, I think I'd take it.
    What the President described could also be criminal 
conduct, a violation of Federal election campaign laws, 
correct?
    Mr. Hasen. So, if you take what he said seriously as a 
solicitation, then it is potentially a violation of campaign 
finance law, yes.
    Mr. Lieu. And there is no Norway exception to our campaign 
finance laws, right? That even if it's from a friendly ally, 
you can't take a campaign donation from a friendly ally; isn't 
that right?
    Mr. Hasen. Right. So the statute prohibits accepting 
anything of value from a foreign government, hostile or 
friendly, or from a foreign entity, like a political party or a 
company, and from a foreign individual.
    Mr. Lieu. Thank you.
    Professor Prakash, I'd like to talk to you a little bit 
about absolute immunity. So let me set this up.
    The Trump administration has engaged in unprecedented 
obstruction of Congress' attempts to get information on behalf 
of the American people. And it's not just in the Mueller 
report; it's in every line of inquiry.
    So, for example, we want to know, why is the Trump 
administration currently suing to eliminate healthcare coverage 
for Americans with preexisting conditions? We can't get that 
information. And we want information on why Wilbur Ross lied 
regarding the U.S. Census. Can't get that information.
    Now, specific to the Mueller report, we interviewed Hope 
Hicks yesterday. We can't get Don McGahn in. And with both of 
those witnesses, the White House is exerting what they call 
absolute immunity, preventing Hope Hicks from testifying about 
anything related to her time at the White House, including 
something as simple as, where was your office located?
    So they were not asserting executive privilege, which, 
Professor Prakash, you have said you believe doesn't exist as a 
matter of law within the courts or under the Constitution. I 
would assume that this broader thing called absolute immunity 
you would also agree is something that is not within the 
Constitution. Could you talk about that?
    Mr. Prakash. I'd be happy to, Representative.
    As you know, the past several administrations have claimed 
that people who aren't subject to advice and consent and who 
are in the White House don't have to testify. And so the Bush 
administration, the Obama administration, now the Trump 
administration are taking the same line.
    Mr. Lieu. And what is your view of absolute immunity?
    Mr. Prakash. I don't believe they have an immunity. I don't 
believe they had it during the Obama administration; I don't 
believe they have it now.
    Mr. Lieu. Thank you.
    And today you're the minority witness? The Republicans 
called you to testify today? Is that right?
    Mr. Prakash. Yes.
    Mr. Lieu. Okay.
    So let me conclude.
    To Ms. Cordero, you earlier have said that the Russians 
were crawling all over the Trump campaign, and the Trump 
campaign officials knew about Russia interference.
    Based on your work in national security, it would be a 
dereliction of duty, wouldn't it, for our FBI law enforcement 
not to have investigated that as a counterintelligence issue 
and to try to do whatever they can, including surveillance, to 
figure out exactly what happened so they have Volume I of the 
Mueller report?
    Ms. Cordero. Absolutely. First of all, they absolutely had 
a duty to investigate Russian interference. There's no question 
about that.
    Then, when they received reliable reporting and other facts 
that would have come in that justified opening an 
counterintelligence investigation to find out whether there was 
ties to the Trump campaign, they had a responsibility to do 
that.
    Counterintelligence investigations start one place. They 
don't necessarily end up where one might expect them to go. 
They're not a criminal investigation where the outcome is to 
determine whether or not to prosecute someone. Their goal is to 
collect the foreign intelligence information to protect the 
United States and to be able to counter those efforts.
    So I haven't seen anything in the public record, including 
in the report, that indicates that there was any ill will or 
malfeasance in the use of investigative techniques to conduct 
this investigation.
    Mr. Lieu. Thank you.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Collins. The gentleman from----
    Mr. Chairman.
    Chairman Nadler. The gentleman from Georgia is recognized 
for a unanimous consent request.
    Mr. Collins. Thank you, Mr. Chairman.
    In light of a statement made from our friend from Tennessee 
earlier about using the word ``collusion'' and not reading the 
report, I would like to enter into the record multiple pages of 
not only tweets but stories and articles of almost most of the 
members on the Democratic side of the aisle, including the 
chairman and many others, using the word ``collusion,'' saying, 
actually, collusion found in plain sight.
    So this is--we're not going to be lectured to by the same 
ones using the same language. I ask unanimous consent----
    Chairman Nadler. I would be happy to not object to the 
inclusion in the record of the truthful information that 
collusion was in plain sight. Without objection.
    [The information follows:]
      

             RANKING MEMBER COLLINS FOR THE OFFICIAL RECORD

=======================================================================

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Nadler. The gentleman from--the gentleman from----
    Mr. Collins. And be wrong. That's pretty good.
    Chairman Nadler. Okay.
    The gentleman from Maryland, Mr. Raskin, is recognized.
    Mr. Raskin. Thank you, Mr. Chair.
    Mr. Biggs and other colleagues chide us for having law 
witnesses instead of fact witnesses today, which is absolutely 
astounding given that they understand that the administration 
has blocked all of the fact witnesses from coming and have even 
invented a completely fanciful new doctrine of absolute 
immunity of executive branch employees to testify before our 
committee.
    But if they would work with us to get these fact witnesses 
and have them actually testify, then we would not have to 
simply rely on the reading of the Mueller report.
    But let's talk about the reading of the Mueller report 
quickly before my questions. Our colleagues return today with 
the absurd and discredited mantra of ``no collusion'' and ``no 
obstruction.'' The ranking member just, I think, missed the 
point about no collusion.
    If you read the report, if you get to, I think, just page 2 
in the report--you don't have to read the whole thing. Just get 
to page 2, and you will see Special Counsel Mueller says: We 
don't address the question of collusion, which is not a 
criminal legal concept. It is a legal concept in the antitrust 
field, but it doesn't play a role in criminal law.
    And so that's a matter of everybody's opinion. Now, 157 
contacts between members of the Trump campaign and Russian 
nationals and their agents, I think, could lead people to say 
that there was collusion. But that is a matter of opinion, and 
everybody can have their own opinion on it. But to come out and 
say that Mueller found no collusion is absolutely absurd.
    Secondly, ``no obstruction'' flies in the face of 10 
different episodes of Presidential obstruction of justice, 
probably 3 or 4 of them that would be prosecutable but for the 
Department of Justice policy that the President can't be 
indicted.
    That's why Special Counsel Mueller actually had a press 
conference to clarify that the reason that the President was 
not indicted had a lot to do with the fact that there's a 
Department of Justice policy that you don't indict a sitting 
President.
    Now, Dr. Polyakova, let me come to you. I think it is 
scandalous and outrageous and dangerous that the President 
would say, in the wake of Special Counsel Mueller's finding 
that there was sweeping and systematic efforts by Russia to 
interfere with our elections, to destabilize our elections, and 
to control the outcome of our elections, that he would gladly 
accept opposition research from Russia or other foreign 
governments.
    What effect do you think this will have on Russia, that the 
President made that statement even in the wake of the special 
counsel's report?
    Dr. Polyakova. I believe that sends a clear signal there's 
still an open door for continued interference in our elections, 
not just to Russia but to other state and nonstate actors who 
would seek to interfere in those ways.
    Mr. Raskin. There's an open door; that might be the 
implication of it. Thank you for your answer.
    Ms. Cordero, what does it mean to a power like Russia, 
which militarily cannot compete with America, economically 
can't compete with American, and they can't compete with what I 
think are the real ideals and organizing principles of our 
democracy--but what does it mean to them to be able to use the 
internet to destabilize our elections if they feel there's an 
open door given by people at the highest levels of government?
    Ms. Cordero. What the report shows and documents is that 
the Russian intelligence services used our technology, U.S. 
companies' technology platforms, to spread disinformation. They 
purchased ads that were unknown to the viewers of that 
information. They pretended to be individuals who were 
grassroots activists. They actually set up--tried to organize 
rallies and real-world events, so it was the virtual real world 
spilling into the physical world.
    And so they use the technology platforms. And what the 
Senate Intelligence's investigation into this has shown is that 
the companies have provided some information but I think we 
still don't have a full picture of the way that Russian, as an 
intelligence service, and other hostile intelligence services 
are using U.S. technology platforms.
    Mr. Raskin. Thank you.
    Professor Hasen, operation research is a thing of value, 
according to the Federal Election Commission. Foreign 
governments are forbidden to interfere in our campaigns by 
making contributions. As you've pointed out, they could sell 
information at market rates if they go in the business of doing 
opposition research. But if they give it to a campaign and the 
campaign accepts it, it becomes an illegal foreign contribution 
under the Bluman decision, where the Supreme Court upheld the 
law against foreign contributions in our elections.
    What can be done, legislatively, administratively, to deal 
with a political actor who says he would break the law in this 
way by welcoming foreign assistance in the course of a Federal 
election?
    Mr. Hasen. Well, there can be civil complaints filed with 
the Federal Election Commission as far as any criminal claims.
    If we're talking about the sitting President, I think we 
run into issues related to whether or not the President can be 
brought up on charges when he's President.
    But for anyone else, to the extent that you can show 
willfulness of trying to solicit something of value--and I 
thing ``of value'' is worth over $25,000--we're talking about 
someone committing a felony----
    Mr. Raskin. And is there anything----
    Mr. Collins. Regular order.
    Mr. Raskin. Is there anything more that could be done 
legislatively?
    Mr. Collins. Regular order.
    Chairman Nadler. The gentleman will proceed under regular 
order.
    Mr. Raskin. Is there anything more that is indicated to be 
done legislatively----
    Mr. Collins. Mr. Chairman, point of order.
    Mr. Raskin [continuing]. Or do you think we potentially 
have done everything----
    Mr. Collins. Point of order.
    Chairman Nadler. I will recognize your point of order when 
the gentleman is finished.
    Mr. Collins. That's not when you recognize point of orders.
    Chairman Nadler. Point of order.
    Mr. Raskin. If the witness can answer the question.
    Chairman Nadler. The gentleman will state his point----
    Mr. Raskin. Ignore the antics, please.
    Mr. Collins. It's not antics when you do the rules.
    Mr. Hasen. I think there are----
    Mr. Collins. Mr. Chairman----
    Mr. Raskin. We had a ruling from the chair.
    Mr. Collins [continuing]. A point of order.
    Chairman Nadler. The gentleman----
    Mr. Raskin. The chair said I could complete the question.
    Chairman Nadler. The gentleman will state his point of 
order.
    Mr. Collins. You can't ignore----
    Chairman Nadler. The gentleman will state his point of 
order.
    Mr. Collins. I make a point of order, that under clause 
2(j) of rule 11, the gentleman's time has exceeded his time 
under the 5-minute rule.
    Chairman Nadler. And I will rule that it has been the 
practice here to be flexible with the 5 minutes on both sides 
and always to permit someone to answer the question once it has 
been stated.
    Mr. Collins. When it is----
    Chairman Nadler. The gentleman----
    Mr. Collins. Do you want me to appeal this?
    Chairman Nadler. If you want to----
    Mr. Collins. I'm----
    Chairman Nadler. The gentleman's time has expired. The 
witness may answer the question.
    Mr. Collins. He had answered the question. He was answering 
another one. He had answered the previous question and was----
    Chairman Nadler. The gentleman may answer the question he 
was answering.
    Mr. Collins. It was a new question.
    Chairman Nadler. The gentleman may answer the question he 
was answering.
    Mr. Collins. I'm getting ready to appeal this and you're 
going to bring everybody back.
    Chairman Nadler. All right. The gentleman's time has 
expired.
    Who's next?
    The gentlelady from Washington, Ms. Jayapal, is recognized.
    Ms. Jayapal. Thank you, Mr. Chairman.
    Mr. Hasen, why don't you quickly respond to Mr. Raskin's 
question. But it is my time, so be quick.
    Mr. Hasen. The very quick answer is, yes, including a law 
that would require campaigns to disclose foreign contacts would 
be a very good place to start.
    Ms. Jayapal. Thank you.
    Ms. Cordero, you in your testimony said something that I 
think was very important. You said--and this was your written 
testimony. You said we have not done a good enough job 
explaining to the American public why foreign influence 
matters.
    Can you tell me quickly and anybody that might be watching 
your top three reasons for why foreign influence matters?
    Ms. Cordero. Foreign influence matters because it affects 
the decisions that we make about how we self-govern. It goes to 
the heart of our democracy.
    So, in order for the--to receive--if there's foreign 
influence, then it affects how we interact with each other. If 
we're the recipients of online disinformation from a hostile 
intelligence service, that affects, as society, how we deal 
with each other.
    Another example is, if there was foreign interference in 
actual candidates, that determines who sits here in this body. 
It affects who we elect as candidates.
    So these are just a couple examples. I've explained more in 
the written statement. But it goes to the heart of our 
democracy and the ability of us to self-govern in a way that is 
in our American interests and not in a foreign country's 
interests.
    Ms. Jayapal. You also stated that the early reporting and 
reaction to the report was skewed as a result of specific 
actions taken by the Attorney General. And I wanted to give you 
a chance to just explain that. And then I have a question for 
you about the Attorney General and his role.
    Ms. Cordero. Sure.
    So, as Congress is aware, the Attorney General issued a 
short summary letter that was sent to Congress before the 
release of the actual report. That letter did not explain what 
the special counsel actually did with respect to obstruction. 
In other words, the letter gave a misimpression to the public, 
which then lasted for weeks, even amongst those of us who 
follow this stuff fairly closely--left a misimpression that 
perhaps the reason this special counsel didn't make a charging 
decision was because the evidence was insufficient.
    Ms. Jayapal. And, in fact, what did the special counsel do 
when he heard the Attorney General's reaction or explanation of 
what was in the report?
    Ms. Cordero. Immediately the--we now know that the special 
counsel sent a letter and the summaries which are prepared in 
the report, which are short summaries that the public can read, 
he sent those summaries to the Attorney General, asked him to 
reveal those publicly. The Attorney General did not do so. And 
so----
    Ms. Jayapal. And, for weeks, said he didn't have the 
information he needed to go back and redact. And so the public 
was denied of that information and, in fact, misled about what 
was in the report.
    Who is the Attorney General supposed to represent, Ms. 
Cordero?
    Ms. Cordero. The Attorney General has an oath to the 
Constitution of the United States.
    Ms. Jayapal. Is the Attorney General the personal attorney 
for President Trump?
    Ms. Cordero. No.
    Ms. Jayapal. And in the role of the chief law enforcement 
officer for the American public, if an Attorney General 
attempts to skew the perception of the Mueller report, would 
you consider in a broad constitutional sense that that is 
ongoing obstruction of justice?
    Ms. Cordero. I'm not willing to say that the Attorney 
General--I would have to think about that more--that the 
Attorney General has obstructed justice.
    What I will say and what I have said before and I'll say 
again here is that the Attorney General's letter of March 27th 
was misleading. The special counsel did not make a finding on 
obstruction because the special counsel felt constrained by the 
Department of Justice legal opinion. And, instead, the special 
counsel laid out a lengthy factual recitation of potentially 
obstructive acts and, if you read to the very last page of the 
special counsel's report, specifically says that no man is 
above the law--no person is above the law.
    Ms. Jayapal. Thank you. So we are doing a lot of these 
hearings because we are trying to reeducate the public about 
what was actually in the report.
    As the Mueller report explains, Federal campaign finance 
laws prohibit foreign nationals from contributing to, donating 
to, or making expenditures on behalf of U.S. political 
campaigns. And, likewise, U.S. candidates are prohibited from 
soliciting, accepting, or receiving a, quote, contribution or 
donation of money or other thing of value in connection with an 
election.
    Professor Hasen, the answer to this may be obvious, but 
what are some of the reasons that we have these prohibitions 
against foreign nationals contributing to U.S. elections?
    Mr. Hasen. Well, I could do no better than to quote Justice 
Stevens, who said that we shouldn't allow people who have, 
quote, no basic investment in the well-being of the country 
trying to influence who our leaders are; that either they could 
be trying to manipulate the outcome of the election or they 
could be trying to curry favor with whoever is in office.
    And if we believe in democratic self-government, then these 
laws are absolutely necessary.
    Ms. Jayapal. So, in other words, we could have a President 
that's not responding to the people of the country but, in 
fact, to a foreign government. And we could have a President 
that actually wasn't elected by the people of the country, in 
terms of where the money for those campaign contributions came.
    Thank you, Mr. Chairman. I yield back.
    Chairman Nadler. The gentlelady yields back.
    The gentlelady from Florida, Mrs. Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    And thank you to all of our witnesses for joining us today.
    You know, I do believe that the United States of America 
has the most powerful and most capable and most prepared 
military and that we have the most talented law enforcement and 
intelligence officials, and I believe that they are prepared to 
deal with any attack, cyber or otherwise, against our country.
    But my biggest fear now, which I did not have prior to 
2016, was to think about America being under attack or America 
being under the threat of attack and the President of the 
United States does absolutely nothing about it.
    Matter of fact--and we all now know that the President said 
a few days ago, and I quote: If they have information, I think 
I'd take it.
    Dr. Polyakova, you said earlier that Russia's intent is 
never benign. And I really wish--you've heard a lot of passion 
and concern today. I wish my Republican colleagues were more 
concerned, or as concerned, about Russia attacking our 
democracy as they are about their colleagues on the Democratic 
side providing the necessary oversight.
    But, anyway, you said earlier, Russia's intent is never 
benign. Could you please, again, elaborate on exactly what you 
meant by that?
    Dr. Polyakova. Absolutely.
    Russia sees itself as engaged in, if not a kinetic war, a 
nonkinetic war with the United States and with the broader 
West. Russian intentions towards the United States seek to 
undermine U.S. legitimacy on the global stage, to destabilize 
our democracy, to sow greater division among our public, and to 
broadly try to split the alliance system the United States has 
led and built since the end of the Second World War.
    Mrs. Demings. Thank you.
    And switching to the GRU intrusions, in addition to hacking 
into servers associated with the Clinton campaign and other 
Democratic campaigns, the GRU also targeted individuals and 
entities involved in the administration of elections.
    Alarmingly, the Mueller report states that victims included 
U.S. State and local entities--I'm from Florida; how well I 
know--such as State boards of election, secretaries of State, 
and county governments, as well as individuals who worked for 
those entities.
    Professor Hasen, even if Russia wasn't able to change the 
vote tallies, what are the types of damage that could be done 
if a hostile adversary gains access to systems used by State 
and local election administrators?
    Mr. Hasen. Well, I agree with you to say that there was no 
evidence of vote totals being manipulated, but there was 
evidence of intrusions into voter registration databases. And 
that could cause terrible mischief.
    So, for example, you could imagine people going to polling 
places on election day and going to vote and their names have 
been removed or their addresses have been changed and they're 
not allowed to vote. And decisions have to be made in real-
time.
    There's really a danger when you start messing with--
because these are all statewide electronic databases now--you 
start messing with those databases. We don't have procedures in 
place as to how to handle that kind of massive problem on 
election day.
    Mrs. Demings. Thank you.
    Dr. Polyakova, back to you. Could data like this also 
potentially be used by the GRU or other Russian actors to aid 
in their disinformation campaigns--for example, by targeting 
particular types of voters?
    Dr. Polyakova. Potentially, yes.
    Mrs. Demings. And is it fair to say that a hostile foreign 
government, in this case Russia, potentially has access to or 
can weaponize millions of Americans' personal data?
    Dr. Polyakova. I don't know the full scope of the 
information they have access to. That would be an intelligence 
question.
    However, given what we know from the Mueller report 
regarding the probes of up to 21 States, I would think that 
they do have access to that information and that they would be 
able to, say, micro-target various electorate constituencies in 
the United States.
    I would just make it clear, however, that they don't 
actually need that, because they have open-source access to 
micro-targeting data via our social media platforms.
    Mrs. Demings. Ms. Cordero, do you believe that Congress has 
done enough, House and the Senate? I understand that the Grim 
Reaper is in the Senate. But do you think that we have done 
enough to secure our elections going into 2020?
    Ms. Cordero. No. I don't think the Congress has passed 
election security legislation yet.
    I laid out in my written statement a variety of steps that 
I think the Congress could take with respect to election 
security legislation involving the administration of elections, 
updating Commission reporting requirements regarding foreign 
contracts, expanding or more clearly defining the scope of 
prohibited activity.
    I think there are potential requirements that we could put 
on social media companies for them to have to inform the 
Intelligence Committees about evidence of disinformation and 
intelligence activity that they are seeing on their platforms.
    I think the intelligence community should have more 
obligation to inform Congress about evidence of Russian or 
other country election interference and future disinformation 
and foreign influence efforts.
    So, no, I think there's more, a lot more, that Congress 
could do.
    Mrs. Demings. Thank you all so very much.
    Mr. Chairman, I yield back.
    Chairman Nadler. The gentlelady yields back.
    The gentlelady from Georgia, Ms. McBath, is recognized.
    Ms. McBath. Thank you, Mr. Chairman.
    And thank you, each and every one of you that are here 
today. Your testimony is extremely important for us getting to 
the truth, so we really appreciate you being here.
    A number of proposed measures have been introduced in the 
House and Senate that would require political candidates to 
file reports with the Federal Election Commission if a foreign 
national tries to offer help to a campaign. Other proposals 
would prohibit campaigns from sharing certain types of 
information with foreign nationals. And still others would 
require transparency in online political ads.
    Professor Hasen, can you provide some of your overall 
impressions about whether a reporting requirement would be 
helpful and could be appropriately tailored to capture the kind 
of foreign contacts that pose the greatest concerns and 
threats?
    Mr. Hasen. I do support a duty-to-report law, which would 
require Presidential campaigns and potentially congressional 
campaigns to report contacts from--certainly from foreign 
governments and potentially from foreign nationals. I think 
that would--if these reports were filed in a timely manner, 
that would allow people to ask followup questions and figure 
out what's going on.
    I also think we need much greater funding and attention on 
cybersecurity in the States, because we really need Federal 
leadership even though these elections are being run at the 
State level. Especially in counties, we know cybersecurity is a 
real problem. And so we need that.
    And we absolutely need to pass either the Honest Ads Act or 
something else that would require that the same rules that 
apply to ads on television and on radio would apply to online 
ads. It turns out that many of the advertisements that the 
Russian Government paid for on social media were not covered by 
current Federal law and were not illegal, and that is a 
problem. They would've been illegal if they appeared on TV or 
radio, but they did not in this way.
    There's a lot that needs to be done.
    Ms. McBath. Thank you.
    And Let me ask you another followup question. What about 
requiring transparency in online ads? Is there any reason that 
you can think of not to do this?
    Mr. Hasen. So we have certain transparency rules that apply 
to some ads that are online and more ads that are on TV and 
radio. I certainly think that the upside of doing so would 
allow voters to know who was the ultimate source of a pitch to 
them to vote in a certain way.
    And the social media platforms have shown they can't do it 
themselves. The kind of disclosure procedures that they've put 
in place are not letting voters know who's behind the ads. So 
congressional transparency legislation is very much needed.
    Ms. McBath. Thank you.
    And, Dr. Polyakova, do you think that these types of 
measures requiring reports of certain foreign contacts, 
prohibiting sharing information with foreign nationals, and 
requiring transparency in online ads, would that help prevent 
Russian influence campaigns going forward?
    Dr. Polyakova. It would be an important but not sufficient 
first step.
    Ms. McBath. Okay. Thank you
    And I'll ask to Ms. Cordero, if campaigns are required to 
file a report if they're approached by a foreign national 
offering to help the campaign, would that be a significantly 
helpful counterintelligence tool?
    Ms. Cordero. I think all of the reforms that you've 
described are important, and Congress should be taking these 
up. I think that they will also have their limits.
    So I think there's two parts. Number one, there's more that 
Congress can do to make clear in the law what is allowed and 
what is not allowed and what has to be reported.
    But there's a second piece, which is that these are--we 
have to remember these are intelligence operations, and so the 
intelligence agencies, the foreign intelligence agencies that 
are engaged in them, they're going to adjust and they're going 
to try to find ways to get around it.
    So I think that these are important reforms and I hope that 
Congress will pursue them. And then we also need to recognize 
the limitations of them, which is why it's important that we 
have candidates that have their eyes open about not receiving 
and being willing to receive this type of information because 
the foreign intelligence agencies will be coming at them.
    Ms. McBath. Thank you.
    And, Dr. Polyakova, you coauthored a report for the 
Atlantic Council that describes some measures that the European 
Union has taken to combat disinformation campaigns. But you 
wrote in a recent op-ed that the United States is lagging 
behind.
    What are some of the key lessons that we can learn from 
what appears to be working in Europe?
    Dr. Polyakova. Thank you.
    That is correct, the U.S. is lagging behind in addressing 
the information manipulation throughout that we see emanating 
from countries like Russia and other actors.
    Some of the key steps that our European colleagues have 
taken are, one, for example, establish an interagency group 
that coordinates, that has a mandate to establish policy vis--
vis disinformation operations against the homeland.
    Currently it is not clear who within the U.S. Government 
actually owns the information manipulation portfolio. There is 
no high-level position at an under secretary level or above 
that has the mandate to carry out any sort of response.
    And secondly, most European governments, including the 
European Commission, have established a rapid response task 
force within their government to be able to understand when 
responses to information attacks are necessary, at what level 
the response should be, and how the United States--and how 
those countries should continue to build resilience and 
resistance against such future operations. We have not taken 
any of those steps so far.
    Ms. McBath. Thank you.
    Chairman Nadler. The time of the gentlelady has expired.
    The gentleman from Colorado, Mr. Neguse.
    Mr. Neguse. Thank you, Mr. Chair.
    I know we're nearing the conclusion of this hearing. So I 
will keep my questions brief.
    Professor--is it Professor Prakash? Make sure I pronounce 
that right.
    Mr. Prakash. Yes, that is correct.
    Mr. Neguse. Thank you, sir.
    Just a couple of quick yes-or-no questions.
    You are a Distinguished Professor of Law, correct?
    Mr. Prakash. I'll let others decide.
    Mr. Neguse. Well, I believe in the written testimony you 
provided you certainly identified yourself that way.
    You teach at the University of Virginia?
    Mr. Prakash. Yes, I do.
    Mr. Neguse. All right. You are a witness for the minority 
here, correct?
    Mr. Prakash. Yes.
    Mr. Neguse. When I say minority, by that I mean the 
Republican caucus of the committee has asked you to come 
testify today, correct?
    Mr. Prakash. That's right.
    Mr. Neguse. And you submitted written testimony, correct?
    Mr. Prakash. That's right.
    Mr. Neguse. And on page 13 of your written testimony you 
said--these are your words--quote, ``I believe that the 
President has committed impeachable offenses by acting beyond 
the Constitution and the statutes of the United States,'' 
correct?
    Mr. Prakash. Yes, I said that of this President and prior 
Presidents.
    Mr. Neguse. And with respect to that sentence, you're 
referring to President Trump, correct?
    Mr. Prakash. In that portion of the testimony that I 
submitted----
    Mr. Neguse. It's a pretty easy yes-or-no question, 
Professor Prakash.
    Mr. Prakash. Well, I don't want----
    Mr. Neguse. I hear your point regarding the others, but you 
obviously have written testimony for the record.
    Mr. Prakash. I wish to make it clear that my comments went 
to the prior several Presidents and not just this President. 
And I think if you just read that----
    Mr. Neguse. Well, I'm going to take back----
    Mr. Prakash [continuing]. People will get the impression 
that I'm----
    Mr. Neguse. I'm going to reclaim my time, sir.
    Mr. Prakash. I'm sorry.
    Mr. Neguse. I'm going to reclaim my time.
    I was hoping you'd confirm it, nonetheless, it bears 
repeating, your written testimony that you've submitted to the 
House Judiciary Committee for purposes of this hearing, after 
being requested to appear here by the minority, in which you 
say, ``I believe that the President''--and you're referring to 
President Trump--``has committed impeachable offenses by acting 
beyond the Constitution and the statutes of the United 
States.'' Those are your words, not mine.
    I yield back the balance of my time.
    Chairman Nadler. The gentleman yields back.
    The gentleman from Arizona, Mr. Stanton.
    Mr. Stanton. Thank you very much, Mr. Chairman.
    Just a few years ago Russian President Vladimir Putin 
ordered his government to engage in a systemic and carefully 
orchestrated cyber attack and disinformation campaign against 
the United States. Volume I of the special counsel's report 
tells us that the Russian attack had the central purpose of 
undermining our democracy by helping the candidate most 
favorable to the Kremlin. It worked. Make no mistake, this was 
the most successful Russian attack against the United States in 
our history.
    With the 2020 Presidential election around the corner, 
America is still at risk. To this day the current 
administration has done little to nothing to prevent further 
attacks, despite everything we know about the attacks that took 
place.
    Rather that demand answers from President Putin, the 
administration accepts denials. Rather than get behind bills to 
enhance our security, the administration blocks them. Rather 
than insulate us from further attacks, the administration 
invites them.
    I was shocked but, frankly, not surprised that in a recent 
media interview the President said that, quote, ``of course,'' 
unquote, he would accept dirt or negative information about his 
opponent in the next election, even if that dirt was provided 
by an adversarial foreign government. He said, quote, ``You 
don't call the FBI. Give me a break,'' unquote.
    The American people still have questions. What lessons can 
we learn from 2016? What are the different ways Russia attacked 
us? Who knew about this attack as it was happening? How can we 
stop an attack like this from happening again?
    Mr. Chairman, I want to say thank you for bringing up these 
important issues to the forefront, leading the way to address 
them in this Congress.
    And I want to thank the witnesses for being here today.
    For Mr. Hasen, you saw recently that the Chair of the 
Federal Election Commission, Ms. Weintraub, made some specific 
comments after the President gave that interview to Mr. 
Stephanopoulos. In your opinion, how unusual was it for the 
Chair of the FEC to release such a statement?
    Mr. Hasen. I can't think of another instance in which the 
Chair of the Federal Election Commission has issued a statement 
like this. So it seems, as far as I know, it's unprecedented.
    Mr. Stanton. All right. And then, Mr. Hasen also, what more 
do you think needs to be done to make it absolutely crystal 
clear that anyone running for public office should under no 
circumstances receive anything of value from a foreign 
adversary?
    Mr. Hasen. Well, at this point I think further 
congressional legislation would be in order to further define 
terms that there could be no ambiguity about what's illegal and 
to provide transparency so that we would know when there might 
be potential contacts between American campaigns and agents of 
foreign governments.
    Mr. Stanton. All right. Ms. Cordero, several investigations 
into the 2016 Presidential election have been conducted. In 
your expert opinion, what should the Department of Justice be 
doing right now to prevent interference in the 2020 election?
    Ms. Cordero. I would imagine that the--and I don't have any 
information--but I would imagine that the Justice Department is 
continuing--the FBI, which has domestic counterintelligence 
responsibilities, and that the intelligence community, which 
has foreign intelligence collection responsibilities, are all 
working collaboratively to uncover ongoing and persistent 
efforts by Russian intelligence or any other hostile foreign 
government that is attempting to interfere with our upcoming 
campaign season and election. And I think that's consistent 
with what current intelligence officials have said.
    As I mentioned earlier with respect to the Attorney 
General's review of prior investigations, I hope that part of 
that review includes clarity so that counterintelligence 
investigators here, if they do come upon information suggesting 
that there is a threat to--a national security or 
counterintelligence threat to a current campaign or a near-to-
come campaign between now and 2020, that they have clear rules 
of the road so that they feel empowered to be able to fulfill 
their responsibilities to protect the country.
    Mr. Stanton. And then one final question, Ms. Cordero.
    The executive branch has repeatedly denied that Russia was 
responsible for trying to interfere in the 2016 election. The 
President said that he credits Vladimir Putin's denial of 
Russia's interference, despite being told the opposite by his 
own intelligence agency.
    To you, is this troubling? If so why?
    Ms. Cordero. It is the definitive assessment of the U.S. 
intelligence community, as well as well documented in the 
Mueller report, that there was a Russian Government-sponsored 
intelligence operation directed at the 2016 campaign.
    That is from an intelligence perspective indisputable. And 
as the Commander in Chief and the individual who has executive 
privilege responsibility to protect the country, it is deeply 
concerning if the President legitimately does not believe that 
assessment.
    Mr. Stanton. Thank you.
    Chairman Nadler. The gentleman yield back.
    The gentlelady from Arizona, Mrs. Lesko, is recognized.
    Mrs. Lesko. Thank you, Mr. Chairman.
    And I'd like to yield--what?--how much time would you like, 
Mr. Collins?
    Mr. Collins. A few minutes.
    Mrs. Lesko. A few minutes to my colleague and ranking 
member, Mr. Collins.
    Mr. Collins. Thank you. I won't take that long.
    Again, I think it is interesting. I do appreciate Ms. 
Cordero actually admitting you didn't know what was going on 
right now. But hopeful, and I'm of the same way and I have no 
indications there's not anything going on between our 
intelligence agency and FBI at this point. And I appreciate you 
saying that.
    Mr. Prakash, you were given the victim in some ways of 
having to go through the 5-minute rounds just like we all are 
up here; but I want to give you a moment of explaining further 
your statement, I believe, in your exchange just a moment ago 
with the gentleman from Colorado.
    Mr. Prakash. Yes. The gentleman, I think, took out of 
context my statement. My statement is that Presidents have 
exceeded their constitutional powers, and that's true for the 
past several Presidents.
    If you believe that starting a war in Libya was 
unconstitutional, that's an impeachable offense. If you think 
that, you know, violating--if you think the President violated 
the Emoluments Clause, this President, that's an impeachable 
offense.
    My statement applied to all the past several Presidents and 
not just this one. It's true that particular sentence only 
referred to this one, but I think it's a mistake to think that 
I was only talking about this one.
    My point is that Congress needs to move beyond partisanship 
and Members of Congress ought to take consistent positions on 
the scope of the war power, on the scope of the Emoluments 
Clause, on the scope of executive privilege. And singling out 
one statement and using it against one President was not the 
point of my testimony, with all due respect to the Member from 
Colorado.
    Mr. Collins. Thank you, Mr. Prakash.
    I think it's interesting, too, because actually you and I 
probably have a difference of opinion on even the War Powers 
Act itself being constitutional, and that's another topic for 
another day.
    I think as we look at this as we go forward, again, it's 
just an interesting time that we, again, have folks telling us 
what we should be doing when there are bills in the hopper 
right now that we could actually be marking up. Instead we're 
hearing that we should be marking up bills, but we're not doing 
that, and that goes back to the chairman and the majority who 
control this time.
    With that, I yield back to the gentlelady from Arizona.
    Mrs. Lesko. Thank you, Mr. Collins.
    As I've said before, this is very frustrating to me because 
my constituents want me to work on real issues and not do 
something that the special counsel has investigated for 2 
years, 2,800 subpoenas, 500 bench warrants. I don't really 
understand what my Democrat colleagues think they're going to 
get further out of this except maybe PR against the President 
of the United States. That's all I can imagine.
    But originally we were supposed to be here talking about 
obstruction of justice, is my understanding, but now it's 
moved, the Democrats have moved it to Russia. So I really don't 
understand this what I believe is obsession over the subject, 
because right here in the Mueller report, page 173, is one 
place where it says it. It says, ``The investigation did not 
establish that the campaign coordinated or conspired with the 
Russian Government in its election-interference activities.''
    This is after 2 years, 2,800 subpoenas, 500 bench warrants, 
40 FBI agents, 19 attorneys, and they have not found this, but 
yet somehow here we're going to rehash all this because we want 
to--some people, I think, want to influence the 2020 election.
    My question then, since we're now talking, I'd like to talk 
about the obstruction of justice part, and my question is with 
Mr. Prakash.
    In your view, Professor, what's your view of the special 
counsel's decision not to make any determination one way or the 
other on obstruction of justice? It seems odd to me that a 
prosecutor who's supposed to either charge somebody or indict 
somebody does it or they don't. Do you think it's odd as well?
    Mr. Prakash. I do. I think there's no OLC or DOJ opinion 
preventing Special Counsel Mueller from deciding whether the 
President committed obstruction. There wasn't one when he wrote 
the report, and there isn't one now. He's fully capable of 
making that determination. He's fully capable of saying: I 
think there's enough evidence to suggest a prosecution or 
suggest that there's a guilty conviction. Or he's able to say: 
There's some evidence but not enough to go forward with a 
prosecution. There's nothing in OLC or DOJ opinions that 
prevent that. I think he was told this and he nonetheless 
decided to keep the report as is.
    Mrs. Lesko. And thank you, Professor.
    And I also want to remind everyone that's watching that 
there was a joint letter by the joint special counsel and DOJ's 
statement on the role of the OLC opinion saying--I'm going to 
read it so I don't get it wrong.
    ``The Attorney General has previously stated that the 
special counsel repeatedly affirmed that he was not saying that 
for the OLC opinion he would have found the President 
obstructed justice.''
    If that's the answer that my Democratic colleagues give for 
why he didn't prosecute, there was a joint statement made by 
both of them saying that was not the reason.
    And so, again, I'm very short on time, but one of the other 
questions, do you think, Professor Prakash, that there needs to 
be an underlying crime in order to prove that there's corrupt 
intent for obstruction of justice?
    Mr. Prakash. I'm not an obstruction of justice scholar. I 
don't think there needs to be an underlying crime. But, of 
course, if there is no underlying crime, it becomes less likely 
than the person who allegedly influenced or obstructed an 
investigation did so with a corrupt intent.
    Chairman Nadler. The time of the gentlelady has expired.
    Mrs. Lesko. Thank you.
    Chairman Nadler. One of our witnesses, Dr. Polyakova, has 
to catch a plane.
    So with the thanks of the committee, you are excused.
    The committee will take a 5-minute break at this point. We 
will recess for 5 minutes; and I mean 5 minutes, not 6. The 
committee is in recess.
    [Recess.]
    Chairman Nadler. The committee will resume.
    The gentlelady from Florida, Ms. Mucarsel-Powell, is 
recognized.
    Ms. Mucarsel-Powell. Thank you, Mr. Chairman.
    Thank to you the witnesses for being here today.
    I want to bring up a little bit and read from the Mueller 
report how the Russians used misinformation to penetrate our 
political system and also sow discord here in the United States 
in the 2016 campaign.
    So in page 33 of the Mueller report it states that, ``Among 
the U.S. `leaders of public opinion' targeted by the IRA,'' 
which is the Internet Research Agency, an arm of the Russian 
intelligence, there ``were various members and surrogates of 
the Trump Campaign. In total, Trump Campaign affiliates 
promoted dozens of tweets, posts, and other political content 
created by the IRA.
    ``Posts from the IRA-controlled Twitter account @TEN--GOP 
were cited or retweeted by multiple Trump Campaign officials 
and surrogates, including Donald J. Trump, Jr., Eric Trump, 
Kellyanne Conway, Brad Parscale, and Michael Flynn. These posts 
included allegations of voter fraud, as well as allegations 
that Secretary Clinton had mishandled classified information.
    ``A November 7, 2016, posts from the IRA-controlled Twitter 
account @Pamela--Moore13 was retreated by Donald Trump, Jr.
    ``On September 19, 2017, President Trump's personal account 
@realDonaldTrump responded to a tweet from the IRA-controlled 
account @10--gop (the backup account of @TEN--GOP which had 
already been deactivated by Twitter). The tweet read: 'We love 
you, Mr. President!' ''
    And the Mueller team actually shows us a picture of some of 
these posts.
    I'm extremely concerned that this continues to happen. We 
are living on a daily basis, 8, 10 hours a day, looking at our 
phones. I am a mom of teenagers who are looking at 
misinformation all the time.
    I actually had a personal experience where my son brought 
to my attention the video that we all saw, the Nancy Pelosi 
video, that was a false video. So imagine, if my son was 
confused with this video, what we're still seeing right now in 
our social media accounts.
    So my question is first for Mr. Hasen.
    You explained that it is illegal for a foreign government 
to give money or anything of value to a U.S. Presidential 
campaign. Could running a social media influence operation be 
considered a thing of value?
    Mr. Hasen. Well, so those were not being given to the 
campaign and they were not being done in coordination with the 
campaign. But there's a separate part of the same law that 
prevents foreign governments and other foreign individuals from 
expenditures, from spending money, even independently, to try 
to influence the outcome of an American election.
    Unfortunately, the way the current statutes are written, 
very little of the kind of social media activity that's 
described in the Mueller report and that were described in 
reports given to the Senate Intelligence Committee are illegal 
under current law, and they don't even require disclosure of 
the source. That's why it's essential that we pass legislation 
that would require people to--so we could at least know who's 
behind these things.
    And I expect we're going to see a lot of this activity 
coming not from foreign sources, but from domestic sources, and 
even there it would be valuable to know who is behind this kind 
of advertising.
    Ms. Mucarsel-Powell. Thank you.
    And I know that the Mueller report confirms that actually 
these accounts were able to reach somewhere between 29 and 126 
million Americans, spreading misinformation on Facebook, 
Twitter, YouTube. So I just want to reiterate that for everyone 
who is watching or that is paying attention, that what we're 
seeing today is the continuation of the spread of 
misinformation in social media.
    So one follow-up question, Mr. Hasen. Is it illegal for a 
foreign entity to buy political ads aimed at U.S. audiences?
    Mr. Hasen. So that depends on what you mean by a political 
ad. It's illegal to buy an ad that says--for example, we saw an 
ad that said vote for Jill Stein, who was a third party 
candidate. But paying to run something that said Hillary 
Clinton is a Satan, which is something we also saw, if that's 
on social media and not on radio or TV in the period before the 
election, not illegal right now.
    Ms. Mucarsel-Powell. And why is the first ad illegal? Can 
you explain that, please?
    Mr. Hasen. Because it contains express advocacy. That is, 
it says that you should vote or against a particular candidate. 
For First Amendment reasons and other reasons, the laws have 
been constructed to differentiate between ads that are about 
candidates and ads that are about issues. We have a slightly 
broader definition that applies to TV and radio. There's been a 
proposal to extend that online. It's in the Honest Ads Act, and 
I would support that extension.
    Ms. Mucarsel-Powell. Okay. And just one final question 
for----
    Mr. Collins. Regular order.
    Ms. Mucarsel-Powell [continuing]. Ms. Cordero.
    Chairman Nadler. Regular order. Regular order.
    Ms. Mucarsel-Powell. Why do you think it's so important to 
have this hearing, since we keep----
    Mr. Collins. Mr. Chairman----
    Ms. Mucarsel-Powell [continuing]. Hearing from our 
colleagues across the aisle that this is not important, that 
we're wasting our time?
    Chairman Nadler. The gentlelady's time has expired.
    The witness may answer the question.
    Mr. Collins. Mr. Chairman.
    Chairman Nadler. The witness may answer the question.
    Ms. Cordero. Thank you.
    I believe these hearings are important because the special 
counsel's report, number one, in Volume I, explains what the 
Russian influence effort was. It explain contacts between the 
Trump campaign and Russian surrogates. It shows its willingness 
to receive information.
    And Volume II of the report articulates anywhere from 4 to 
6 and up to 10 potentially obstructive acts that are acts that 
this Congress has a duty to look into further.
    Chairman Nadler. The time of the gentlelady has expired.
    The gentlelady from Pennsylvania, Ms. Dean.
    Ms. Dean. Thank you, Mr. Chairman.
    Ms. Cordero, in my limited time I wanted to take a look at 
the notion of disinformation, disinformation from a foreign foe 
but also disinformation from within the country. And the 
general definition that I'm using of disinformation is false 
information that is intended to mislead; false information 
intended to mislead.
    I was really struck by the clarity with which you began 
your written testimony, that you talked about your focus on the 
significance in our national security and our democratic 
institutions. And one of your bullet points regarding Volume I 
was lessons we can draw from the report to ensure that foreign 
interference in our democratic institutions can be looked at as 
an aberration and not an accepted part of American elections 
and public discourse.
    That's my ambition, too. I thank you for so clearly stating 
that.
    But I want to take a look at the disinformation that I saw 
coming from the Attorney General on behalf of this 
administration. You commented on this skewed perception of the 
findings of the special counsel due to the actions of Mr. Barr. 
I'm going to try to do this timeline real fast.
    On March 22, special counsel submitted his report. On March 
24, the Attorney General put out a four-page summary that was 
misinformation about that 448-page report. On March 25, the 
special counsel wrote a letter to the Attorney General 
including executive summaries that he hoped would be released. 
March 27, special counsel again wrote to the Attorney General 
that the summary he released did not fully capture the nature 
and substance of his work or conclusions and worried about 
public confusion.
    Finally, after almost 4 weeks--and we lived it right here--
on April 18, the Attorney General first held a press conference 
where he said over and over again no collusion, no collusion, 
no collusion, no obstruction, and then released the report. And 
as we know from page 2 of the Attorney General's report, he was 
never looking for collusion because it's not a legally 
chargeable thing.
    So the President and the Attorney General have gone around 
saying no collusion, I would argue, probably hundreds of times. 
In fact, in that press conference: No evidence of Trump 
collusion. This is by Attorney General Barr.
    Can you talk to me about the problem of public confusion, 
of disinformation coming from within a governmental 
institution, and what is at risk when that happens?
    Ms. Cordero. So I want to be careful not to confuse what 
the Russian interference effort was as a hostile intelligence 
operation with what I described in my statement as the 
misleading letter of March 24 from the Attorney General.
    I do believe, as I wrote in my statement, that his letter 
was misleading, and it created, as the special counsel later 
wrote in his letter that was not released for several weeks, 
the special counsel acknowledged that the Attorney General's 
public statements had created a misimpression in the public.
    In my view, the Attorney General had a responsibility not 
to create that confusion. And because he is the Attorney 
General, because we hold the Attorney General up in an elevated 
position as the chief law enforcement officer of the country, 
we expect that the Attorney General will accurately, and I 
expected that the Attorney General would have accurately 
represented what was in the report.
    The special counsel's office was clear that the reason they 
did not make a finding on obstruction was because they felt 
constrained by existing Justice Department legal opinion that a 
President could not be indicted. Therefore, they didn't think 
they could make the recommendation. And they applied a doctrine 
of fairness which said that you can't accuse somebody of a 
crime if they're not going to be able to stand trial, which a 
President would not.
    But I would note that in the very last two pages, if you 
read all the way to the end of the special counsel's report, at 
the end of Volume II, the special counsel says that we had a 
valid basis for investigating the conduct at issue in this 
report and the application of the obstruction statutes would 
not impermissibly burden the President's performance of his 
Article II functions and that this protection of the justice 
system accords with the fundamental principle of our government 
that no person in this country is so high that he is above the 
law, quoting a case from the 19th century.
    So I believe that the special counsel laid out their 
investigation so that this body would wrestle with the facts 
that are in that report.
    Ms. Dean. I thank you for that, and I thank you for your 
opening clarification. It is I who is saying that absolutely I 
agree with you the Russian interference, the Russian 
disinformation is extraordinarily grave, and of course members 
of this committee are concerned that it is the continuing and 
will continue in 2020.
    But I do think that it's very critical that we examine what 
happens within our institutions and what information is put 
out. It is very dangerous for, as Mr. Mueller himself told Mr. 
Barr, to risk public confusion, and that's exactly what he did 
and continues to do as far as I'm concerned.
    So thank you for your expertise.
    Thank all of you.
    Thank you. I yield back.
    Chairman Nadler. The gentlelady yields back.
    The gentlelady from Texas, Ms. Escobar, is recognized.
    Ms. Escobar. Thank you, Mr. Chairman.
    And many thanks to our panel today.
    I just want to say for the record how deeply concerned I 
continue to be when I hear efforts to distract and distort the 
truth when what is at stake is our very American democracy.
    Ms. Cordero, I'm going to be asking you a couple of 
questions. I'd like to get through as many of them as possible, 
so if it's possible, if you could be as succinct in your 
responses.
    I want to focus a little bit on Russia's hacking and 
dumping operations. The Mueller report states that in April, 
2016, the GRU, quote, ``hacked into the computer networks of 
the Democratic Congressional Campaign Committee and the 
Democratic National Committee, targeting hundreds of email 
accounts used by Clinton campaign employees, advisers, and 
volunteers. In total, the GRU stole hundreds of thousands of 
documents from the compromised email accounts and networks,'' 
end quote. Then the GRU released stolen documents using fake 
online personas and later released them through WikiLeaks.
    The Mueller report states that, quote, ``The release of the 
documents was designed and timed to interfere with the 2016 
U.S. Presidential election in order to undermine the Clinton 
campaign,'' end quote.
    We then heard from Jared Kushner, the President's son-in-
law, long after the report was released, that all it was was a 
few Facebook ads.
    And so my question for you, Ms. Cordero, in your view, how 
sophisticated was this operation?
    Ms. Cordero. The social media operation--well, there were 
two parts of it, the social media operation and the hacking 
operation. Both were--they were government-sponsored events. 
They were activities. They were the activities of a hostile 
intelligence service. So this is part of the Russian 
intelligence, part of their military operation.
    The online effort was they had an organization called the 
Internet Research Agency which had employees, people who this 
was their actual job to do, actually doing the activity of 
putting out posts. I don't know how particularly sophisticated 
that is. I think on the sophistication, technical 
sophistication, we see the hacking activity, which was 
pervasive and consistent and deliberately timed in terms of the 
releases.
    Ms. Escobar. And so you mentioned the military operation 
component of this. So literally people would get up and go to 
work every day in order to do this?
    Ms. Cordero. Well, and that's consistent--yes, and that's 
consistent with what we see from other countries, as well. Some 
of the Chinese indictments have described with respect to 
Justice Department prosecutions against Chinese intelligence 
activities where this is--this is their job. This is a foreign 
intelligence activity directed at our country. That's what the 
Russians were doing. This was an organized government 
intelligence operation targeting us.
    Ms. Escobar. And why should ordinary Americans care? And I 
have found myself having to explain this to folks. Why should 
they care about the fact that Russia was trying to manipulate 
us?
    Ms. Cordero. They should care because Russian interests are 
not American interests. So this gets to--this is why this is a 
bigger part of our foreign policy conversation, our domestic 
conversation, in terms of when a foreign country is taking 
intelligence activities against another country, they're doing 
it for their own interests, their own geopolitical interests, 
their economic interests, their military interests.
    And so they determined that this information operation was 
in their interests. That is not the same as American interests. 
Maybe there's things that we can cooperate on with countries 
that have different interests than ours, but we need to pay 
attention and it's the responsibility of American leaders in 
government to protect what is in American interests. And when 
we are the recipients of a foreign influence operation and we 
don't understand that, we don't understand how we're being 
manipulated.
    Ms. Escobar. And why on Earth would any American want to 
prevent an investigation into that kind of manipulation?
    Ms. Cordero. I don't know why any American would want to 
prevent that investigation and I certainly don't know why 
anyone who is ostensibly the head of the executive branch would 
want to interfere in that investigation.
    Ms. Escobar. Thank you so much.
    I yield back my time.
    Chairman Nadler. The gentlelady has yielded back.
    The gentlelady from Texas, Ms. Garcia.
    Ms. Garcia. Thank you, Mr. Chairman.
    And thank you for all the witnesses. I know it's been a 
long hearing. And, first off, I want to apologize that I was 
not here for your opening statements. Regretfully, I was at 
another committee hearing. But like people coming to Texas, 
they get there as quickly as they can.
    But I wanted to start with you, Ms. Cordero. During last 
Monday's hearings our witnesses focused on discussing all of 
the evidence regarding obstruction of justice as described in 
Volume II. However, I think that there are some things in 
Volume I that kind of shed light on the allegations of 
obstruction.
    So, broadly speaking, when the Mueller report describes 
efforts to undermine the special counsel's investigation, what 
exactly was the investigation that the administration officials 
or the President was attempting to restrict or end prematurely? 
In other words, if Special Counsel Mueller's investigation had 
never happened, what are some of the things we wouldn't have 
learned?
    Ms. Cordero. The special counsel's investigation has been 
able to lay out in a way that we can see for the most part--and 
there still are some significant parts redacted that I hope the 
committee will be able to obtain.
    Ms. Garcia. Many of us agree with you.
    Ms. Cordero. But to lay out what the activities were of the 
Russian intelligence activities.
    In terms of the obstruction, Volume II lays out a variety 
of steps the President took in terms of starting with the 
firing of the FBI Director, then trying to encourage his staff 
to potentially relieve the special counsel of his duties, 
encouraging his staff to then try to cover up the fact that he 
had directed, in particular his White House counsel, to direct 
the Deputy Attorney General to fire the special counsel.
    So I think that the President perhaps thought--and I'll 
make that speculation--that firing these different individuals 
or changing the leadership of the investigation would end the 
investigation. I think the agencies work in a way that was able 
to continue it. But had the special counsel's investigation 
actually been curtailed, it could be that we wouldn't know all 
of the facts that we do know already.
    And just as an example, so I'll show you, there's a section 
of Volume I that says ``Trump campaign and the dissemination of 
hacked materials.'' And this is my marked-up copy of the 
report. You can see that the ``Trump campaign and dissemination 
of hacked materials'' is mostly redacted in the public report, 
but this is obviously information that the special counsel was 
able to uncover regarding what the campaign was trying to 
receive in terms of information that was hacked by the Russian 
intelligence agents.
    Ms. Garcia. Right, which is a perfect example of the 
reasons we're trying to get a copy of the entire unredacted 
report and all the underlying evidence.
    And on page 90 and 91 of Volume II of the report, it 
describes how the President tried to enlist his former campaign 
manager, who was not a White House employee at the time, had no 
real role in the White House, Corey Lewandowski, to deliver a 
message to then Attorney General Jeff Sessions.
    He told Lewandowski to write it down and then dictated a 
speech that he wanted to order Sessions to give about the 
special counsel's investigation, notwithstanding Sessions' 
prior recusal from the case. He wanted Sessions to deny that he 
had done anything wrong as a candidate during the campaign.
    And then he wanted Sessions to say, quote: Now a group of 
people want to subvert the Constitution of the United States. I 
am going to meet with the prosecutor to explain this, it's very 
unfair, and let the Special Prosecutor move forward with 
investigating election meddling for future elections so that 
nothing could happen in the future.
    He was trying to limit it, right?
    So Lewandowski wrote all this down. He gave the notes to 
the special counsel's office.
    My question, Ms. Cordero, is, would it even have been 
possible to limit an investigation like this to, quote, 
election meddling for future elections? Why or why not?
    Ms. Cordero. If the special counsel would have been fired, 
or if the individual overseeing the special counsel's 
investigation--so the reason he wanted Attorney General 
Sessions to unrecuse was because, I think, he thought that 
Attorney General Sessions, if he was in charge of the 
investigation, might limit the scope of it.
    So perhaps he was hoping that he could put in place an 
Attorney General who would not allow the investigation to go 
into areas about what the campaign did or what happened in the 
White House or the obstructive acts that are detailed in Volume 
II. That's what I think the goal of trying to change the 
leadership of the investigation was.
    And that's why the--and so that--it is possible that, had 
the special counsel been fired and a different Attorney General 
overseeing the investigation would have cabined the 
investigation, then it is possible that we would not have the 
information that is in Volume II especially, which is the 
outlying of the potentially obstructive conduct.
    Ms. Garcia. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Nadler. The gentlelady yields back.
    This concludes today's hearing. We thank the witnesses for 
attending and for their testimony.
    Without objection, all members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    Without objection, the hearing is adjourned.
    [Whereupon, at 1:52 p.m. the committee was adjourned.]
      

                                APPENDIX

=======================================================================

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           [all]
                           
                           
                           
</pre></body></html>
